<html>
<title> - BOSNIA: STATUS OF NON-COMPLIANCE WITH THE DAYTON ACCORDS</title>
<body><pre>[Senate Hearing 105-351]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 105-351
 
        BOSNIA: STATUS OF NON-COMPLIANCE WITH THE DAYTON ACCORDS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 1997

                               __________

       Printed for the use of the Committee on Foreign Relations



                     U.S. GOVERNMENT PRINTING OFFICE
43-745 CC                   WASHINGTON : 1998




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman

RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas

                     James W. Nance, Staff Director

                 Edwin K. Hall, Minority Staff Director

                                 ______

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman

RICHARD. G LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Abramowitz, Hon. Morton I., Acting President, International 
  Crisis Group...................................................    25
    Review of the Dayton Peace Agreement's Implementation, 
      prepared by The International Crisis Group.................    27
Gelbard, Hon. Robert S., Special Representative of the President 
  and the Secretary of State for the Implementation of the Dayton 
  Peace Accords..................................................     3
    Prepared statement...........................................     7
Heffernan, John W., Executive Director, Coalition for 
  International Justice..........................................    31
    Additional information submitted by Mr. Heffernan............    33
Johnson, Harold J., Associate Director, International Relations 
  and Trade Division, General Accounting Office..................    42
    Prepared statement...........................................    45
Lautenberg, Hon. Frank R., U.S. Senator from New Jersey, prepared 
  statement......................................................    60

                             (iii)





        BOSNIA STATUS OF NON-COMPLIANCE WITH THE DAYTON ACCORDS

                              ----------                              


                        THURSDAY, JULY 17, 1997

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:14 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon Smith, 
presiding. Present: Senators Smith, Lugar, Hagel, and Biden.
    Senator Smith. Ladies and gentlemen, we welcome you to this 
hearing on the European Affairs Subcommittee of the Senate 
Foreign Relations Committee. I will begin with an opening 
statement.
    We expect Senator Biden will join us. We are very pleased 
to have Senator Hagel with us. And I will begin as follows:
    Today the committee is convened to discuss the current 
situation in Bosnia, particularly the degree to which the 
parties to the Dayton Accords are complying with the 
obligations laid out in the agreement. Our first panel will 
consist of Ambassador Robert Gelbard, the Special 
Representative to the President and the Secretary of State for 
Implementation of the Dayton Accords.
    After we hear from Ambassador Gelbard, the committee will 
welcome Ambassador Morton Abramowitz of the International 
Crisis Group, Mr. John Heffernan from the Coalition for 
International Justice, and Mr. Jim Johnson from the National 
Security and International Affairs Division of the General 
Accounting Office.
    The tragedy in the former Yugoslavia was one of the most 
brutal and widespread violence that has occurred on European 
soil since Hitler's army swept across the continent. During the 
most bitter days of the war, the Clinton Administration 
struggled to formulate a coherent policy, even as the 
architects of the war were implementing a ruthless strategy of 
ethnic cleansing throughout the country.
    Even as this brutality was taking place, the administration 
continued to support an immoral arms embargo that prevented one 
of the parties from gaining the means to defend itself. After 4 
years of warfare, the administration realized without United 
States leadership the conflict in Bosnia would continue to 
rage.
    After several weeks of negotiation, on November 21, 1995, 
the parties to the conflict signed the Dayton Accords to end 
the fighting in the former Yugoslavia. Since that time, there 
have been significant accomplishments, most notably no major 
hostilities have erupted in Bosnia for over 18 months.
    However, lasting peace will be impossible without an 
ongoing international presence if the Bosnian Serbs, Croats, 
and Muslims continue to defy the provisions of the Dayton 
Accords, including those relating to war criminals, refugee 
return, and the establishment of self-sufficient national 
institutions.
    I was pleased to learn that Secretary Albright made a 
commitment this May that the administration will focus on the 
full implementation of the Dayton Agreement. Clearly the lack 
of such a commitment during the period that the Implementation 
Force was deployed in Bosnia made necessary a continued 
military presence after the IFOR mandate ended.
    I am hopeful that promoting Dayton implementation this year 
will allow the seeds of peace to take root more firmly in 
Bosnia and ultimately permit the departure of U.S. troops in 
Bosnia in June 1998, as scheduled.
    Today I look forward to hearing from Ambassador Gelbard 
about the concrete steps the administration is taking to 
accomplish this goal. I am particularly concerned with the 
continued presence of indicted war criminals in Bosnia. 
Reconciliation simply is not possible without the removal of 
these individuals from the country. They must be handed over to 
The Hague and held accountable for their actions.
    I congratulate the British soldiers who have engaged in a 
successful operation to apprehend two such war criminals last 
week.
    I hope this is a sign of more vigorous interpretation of 
the SFOR mandate with regard to the role that NATO forces 
should play in arresting war criminals in Bosnia.
    However, in light of the stabbing of a U.S. soldier 
yesterday and several explosions directed against international 
organizations since the British operation, I urge the 
administration to make clear in no uncertain terms that 
retaliation against NATO troops for such operations will be 
harshly dealt with.
    The issue of refugee return is also of utmost importance to 
a lasting peace in Bosnia. I am distressed at the atmosphere of 
fear and intimidation that prevents refugees from returning to 
their homes if these homes lie in areas controlled by another 
ethnic group.
    The right of refugee return lies at the heart of the Dayton 
Accords. The United States must stress to the parties that 
upholding this principle is not optional. The United States has 
a critical role in ensuring that the parties to the Dayton 
Accords live up to their commitment.
    Concurrently, we have an obligation to the American 
taxpayers that the $7.7 billion we are spending on our 
operations in Bosnia is not contributing to just an expensive 
cease-fire.
    I look forward to hearing from all of our witnesses this 
afternoon regarding their views of the status of Bosnia Serb, 
Croatian, and Muslim compliance with the Dayton Accords.
    Senator Hagel, do you wish to make an opening statement?
    Senator Hagel. Only that I wish to thank you, Mr. Chairman, 
for holding the hearing.
    I last saw Ambassador Gelbard in Bosnia 2 weeks ago and 
appreciated very much the time that you spent with our 
delegation, which included the Senate Majority Leader. And I 
know Senator Lott came away from that day in Bosnia with a 
very, very strong base and sense of commitment that you and our 
people, our forces, our allies, have made to make a difference 
there.
    And I would just say that I look forward to hearing from 
Ambassador Gelbard and the other witnesses. Thank you.
    Senator Smith. Thank you.
    Ambassador, should the ranking member--Senator Biden--
arrive, we will hear from him also and include his statement in 
the record, if he would wish that. Until that time, we look 
forward to hearing your testimony.

STATEMENT OF HON. ROBERT S. GELBARD, SPECIAL REPRESENTATIVE OF 
THE PRESIDENT AND THE SECRETARY STATE FOR IMPLEMENTATION OF THE 
                      DAYTON PEACE ACCORDS

    Ambassador Gelbard. Thank you very much, Mr. Chairman.
    And thank you, Senator Hagel, for your very kind words.
    I appreciate this opportunity to appear before the 
subcommittee to discuss the current situation in Bosnia and our 
efforts to accelerate peace implementation there.
    With your permission, I would like to enter my entire 
statement in the record.
    Senator Smith. Without objection.
    Ambassador Gelbard. Thank you, sir.
    As Secretary Albright emphasized in her May 22 speech, 
success in Bosnia is essential to U.S. security and foreign 
policy interests in Europe. Our efforts to date to secure peace 
in Bosnia should be a source of pride. The U.S.-led 
international effort brought the war to an end and has kept the 
peace in Bosnia.
    The Bosnian mission has re-energized NATO becoming the 
model of multi-national military cooperation. We are rebuilding 
the country and returning people to their homes. National 
elections were held and the governmental institutions mandated 
by Dayton have begun to function.
    We have given the people of Bosnia something all people 
deserve, the chance to live in peace and the prospective of a 
better future.
    Obviously, much remains to be done, however. When I assumed 
this job 3 months ago, I was asked by the President to 
undertake a comprehensive administrative review of our Bosnian 
policy with the goal of accelerating and strengthening the 
peace implementation process.
    As a result of this review, we have renewed our commitment 
to fully implement Dayton, to strengthen multilateral efforts 
and to use every single point of leverage available.
    We are, as a result, more aggressively targeting economic 
assistance for those who support Dayton and will continue to 
deny political participation and other privileges to officials 
who obstruct Dayton.
    Our top priorities in Bosnia included, first, bringing 
indicted war criminals to justice; second, improving the 
ability and willingness of local law enforcement authorities to 
provide public security for all Bosnians; third, promoting 
military stability to minimize the prospects for renewed 
fighting; fourth, advancing the development of democratic 
institutions that govern in accordance with the rule of law; 
fifth, securing the safe return of refugees and displaced 
persons to their homes and to enable Bosnians to move freely 
throughout their country; six, enhancing economic 
reconstruction and commerce between the two entities, creating 
a solid foundation for a lasting peace.
    We have launched an intensive campaign to reinvigorate the 
international effort since then, and our allies have been 
completely receptive to these stepped-up efforts.
    In Sintra, Portugal, at the end of May, the Bosnian peace 
implementation ministerial council unanimously endorsed a 
declaration that jointly demands far greater cooperation from 
all the Dayton parties, setting specific deadlines for 
achieving implementation milestones.
    Subsequently, the summit of the aid in Denver reaffirmed 
these principles in very strong terms. Then, and most recently 
at the NATO summit in Madrid last week, another clear statement 
was issued regarding our mutual determination to carry out our 
policy fully with particular emphasis on the current situation 
in the Republika Srpska.
    During her recent visit to Bosnia, Croatia, and Serbia, 
Secretary Albright also personally stressed the need for 
accelerated peace implementation. So have I in my five visits 
to Bosnia in my 3 months in this job.
    The leaders in Bosnia, Croatia, and Serbia now understand 
that we intend to hold accountable for the lack of progress in 
meeting any Dayton goals. Secretary Albright drove home these 
points to Presidents Tudjman and Milosevic that their nations 
cannot hope to join the West, or in the case of Milosevic the 
rest of the planet, unless they demonstrate a genuine 
commitment to Dayton, democracy, and basic human rights.
    I have reiterated that point during my most trips to the 
region with both of them, as well as with all of the leaders of 
Bosnia. Our recent efforts to build international support to 
delay international loans to Croatia are evidence of our 
resolve on this front until Croatia does what they signed up to 
do.
    Since Sintra, we have had a number of important 
implementation successes, many of them essential to building 
the national institutions and infrastructure envisaged in 
Dayton. After a good deal of U.S. pressure, the Bosnian 
national parliament adopted a package of basic economic laws 
which help to bind together Bosnia as a single country. This 
includes for the first time a national budget, a national 
customs and tariff regime, a single national central bank, 
single currency.
    Bosnia reached the London Club agreement with its 
commercial creditors, deeply reducing its debt burden and 
regularizing its relations with the international financial 
community.
    They have secured agreement on the outlines of an IMF 
letter of intent. As a result of this progress, we will hold a 
donors conference next week, which should garner close to $1.4 
billion in pledges for Bosnian reconstruction.
    OSCE has completed the registration of over 2.4 million 
Bosnian voters for September municipal elections. Under the 
able leadership of Ambassador Robert Frowick, the OSCE thwarted 
significant efforts at fraud and manipulation during the 
registration process for all three parties.
    Refugee returns have begun to develop hopeful more backup 
in the federation in many communities, including particularly 
the middle of Bosnia, Canton, Stolac, Vares Bgwano.
    Communities in the Republika Srpska have shown a 
significant desire to participate in the U.N.'s open cities 
program. And President Plavsic is demonstrating concrete 
support to help make this happen.
    Unfortunately, though, all three parties continue to show 
reluctance in this area, and I particularly look to the Muslims 
to take unilateral action undiluted with any links to anything 
else to help restore Sarajevo to its previous multi-ethnic 
status. This would have great symbolic importance.
    Bosnian Muslim and Croat officials in Mostar, Neretva 
Canton, has signed a critical agreement to integrate the 
police, clearing the way for more rapid vetting and integration 
of local police throughout the Federation under the auspices of 
the International Police Task Force with training and equipment 
provided largely by the United States.
    And international forces, as you are well aware, captured 
indicted war criminals in the Bosnian-Serb entity near Prijedor 
and the Croatian-Serb area of Eastern Slavonia near Vukovar 
before that.
    I would like to say a few words in particular on the issue 
of war crimes and the importance of the International War 
Crimes Tribunal in the former Yugoslavia. Individuals, not 
nationalities, ethnicities or religions, must be held 
responsible for the crimes they committed against their 
neighbors and countrymen during the war. Bringing war criminals 
to justice fulfills the basic dictates of morality.
    But it also it makes it hard to lay blame on an entire 
population or ethnic group, the type of collective blame which 
can become the source of future conflict. The recent NATO 
operation to capture indicted war criminals in Bosnia was 
within SFOR mandate and provides clear evidence of 
international resolve to see justice done now and in the 
future.
    Our position on this issue is very clear. The parties to 
Dayton are responsible for turning indictees over to the 
tribunal. Some have complied fully; others not at all. If local 
authorities continue to refuse to abide by their obligation to 
arrest indicted war criminals, we will continue to look for 
other ways to secure their capture. And this includes not just 
Bosnia, but Croatia and Serbia.
    As many of you are aware, there is a political crisis 
unfolding in the Republika Srpska. An increasingly anti-
democratic climate and abuses of police authority, reminiscent 
of the worst of Stalins days, are undermining basic human 
rights and implementation of the Dayton Agreement.
    We are working actively to ensure respect for 
democratically elected authority and the expansion of 
independent media to provide objective information to the 
people of the Republika Srpska.
    The Republika Srpska President Plavsic's message, that a 
small group in Pale is enriching themselves while the rest of 
Republika Srpska is sinking deeper into isolation and poverty, 
has hit a responsive chord there.
    It is time for Radovan Karadzic to be delivered to The 
Hague and for the Republika Srpska government to function on 
the basis of the rule of law.
    Until that happens, the Republika Srpska will be denied its 
share of the considerable international reconstruction 
assistance presently available to Bosnia. Our allies agree on 
this point, and President Plavsic, unlike their hard line 
adversaries, seems willing to put the larger interests of the 
Bosnian-Serb people ahead of the personal greed of the few in 
Pale.
    Our successes are considerable, but obstacles to Dayton 
remain. Many leaders in each of the ethnic communities have 
failed to move beyond the war or are working for personal, 
political, and economic gain.
    Elements of the Bosnian-Serb leadership have been 
especially recalcitrant, but Bosnian Croat and Bosniak leaders 
are also guilty of creating obstacles to refugee return and 
freedom of movement.
    Dayton is clear: everyone, as you said, Mr. Chairman, has 
the right to return to their homes. But the reality is quite 
different. More than 1.6 million Bosnians remain displaced. 
Approximately 70 percent come from areas where they would now 
be in the ethnic minority.
    The United States is currently spearheading an effort to 
promote the return of ethnic minorities. United States 
officials, including the Secretary of State, have placed 
significant pressure on Bosnian officials to allow ethnic 
minorities to return to their homes.
    Our government has also provided incentives to communities 
that accept refugees from all ethnic groups in order to make 
this a reality. It is still too early to judge, but more 
minorities may return to their homes in both entities this year 
than we had earlier thought possible.
    While the numbers are not yet huge, these returns will help 
destroy the myth that Bosnians from different ethnic groups can 
no longer live together.
    The United States made a long-term commitment to peace in 
Bosnia and the reintegration of Bosnia to Europe. We have 
invested U.S. prestige and resources in creating a peaceful, 
stable Bosnia.
    This long-term commitment means that we will continue to 
stay engaged in Bosnia, providing assistance and international 
leadership well beyond the end of the SFOR mandate in June of 
next year.
    The SFOR mission will end in June 1998. It is essential, 
therefore, that we focus our energy between now and then on the 
task at hand: rapid and full implementation of the Dayton peace 
plan so that the process of nation building can proceed without 
the threat of renewed fighting.
    Our ability to achieve progress in the coming months will 
determine the security environment next year and will dictate 
what type of international presence is required.
    Despite our best efforts, Bosnia will not enjoy a truly 
sustainable peace until its people and its leaders demonstrate 
the same determination to make Dayton succeed.
    The United States has made clear its commitment to help, 
and our firm belief that success in Bosnia is in the interest 
of the U.S., of European security and of the Bosnian people. We 
also have made clear that they must do their part.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Gelbard follows:]

                Prepared Statement of Robert S. Gelbard

    Mr. Chairman, thank you for this opportunity to appear before the 
subcommittee to discuss the current situation in Bosnia-Herzegovina and 
our efforts to accelerate peace implementation there.
    As Secretary Albright emphasized in her speech on the U.S.S. 
Intrepid on May 22, success in Bosnia is essential to the protection of 
U.S. security and foreign policy interests in Europe. Instability in 
Bosnia threatens stability in Europe and undermines our efforts to 
create a unified, peaceful, and prosperous Europe as a global partner 
for the U.S. As we expand NATO and forge a new security achitecture in 
Europe, Bosnia is our first major test.
    We have much to be proud of. The international effort led by the 
U.S. has kept the peace in Bosnia for more than eighteen months, after 
three years of terrible war. IFOR--and now SFOR--have done a 
spectacular job. The Bosnia mission has reenergized NATO and is a model 
of multinational military cooperation.
    Through the international assistance effort, we have successfully 
begun the process of rebuilding the country and returning people to 
their homes. National elections were held and the governmental 
institutions mandated by Dayton, though still fragile, have begun to 
function. We have given the people of Bosnia something all people 
deserve--the chance to live in peace and the prospect of a better 
future.
    Much remains to be done, however. That is why, as soon as I came on 
board as Special Representative for Dayton Implementation, the 
administration undertook a comprehensive interagency review of our 
Bosnia policy, with the goal of accelerating and strengthening the 
peace implementation process.
    The result of this review was a renewed commitment to full Dayton 
implementation, and a renewed conviction that the task was achievable 
given allied cohesion and a willingness to fully use our considerable 
leverage in the Balkans. We intend to use every point of leverage 
available, including more aggressively targeting economic assistance to 
those who support Dayton and denying political participation and other 
privileges to officials who obstruct Dayton.
    Our priorities in Bosnia are:

  (1) bringing indicted war criminals to justice;
  (2) improving the ability and willingness of local law enforcement 
            authorities to provide public security for all Bosnians;
  (3) promoting military stability to minimize the prospects for 
            renewed fighting;
  (4) advancing the development of democratic institutions that govern 
            in accordance with the rule of law;
  (5) securing the safe return of refugees and displaced persons to 
            their homes and enabling Bosnians to move freely throughout 
            their country; and
  (6) enhancing economic reconstruction and inter-entity commerce.

    We have begun an intensive campaign to reinvigorate the 
international effort. Several of our allies have recently also reviewed 
their Bosnia policy and reached conclusions similar to our own. In 
Sintra, Portugal at the end of May, members of the international 
steering board governing Bosnia peace implementation unanimously 
endorsed a declaration--based largely on the results of our policy 
review--that demands far greater cooperation from the Dayton parties 
and sets specific deadlines for implementation milestones. For example: 
after August 1, the international community will only deal with Bosnian 
ambassadors appointed by the new central government based on a 
multiethnic formula; after August 1, if the Bosnian Civilian Aviation 
Authority is not reconstituted and operational, the steering board will 
recommend that international authorities cease to cooperate with the 
existing body.
    Our message of accelerated peace implementation was stressed during 
Secretary Albright's visit to Bosnia, Croatia, and Serbia following the 
Sintra meeting, and was subsequently endorsed by the leaders of the 
international community at the G-7 summit in Denver and the NATO summit 
in Madrid.
    Secretary Albright made clear to leaders in Bosnia, Croatia, and 
Serbia that we hold them accountable for the lack of progress in 
meeting the Dayton goals. In particular, Secretary Albright drove home 
the point to Presidents Tudjman and Milosevic that their nations cannot 
hope to join the West unless they demonstrate a genuine commitment to 
Dayton, democracy, and basic human rights. Our recent efforts to build 
international support to delay international loans to Croatia should be 
seen as evidence of our resolve on this matter.
    Since Sintra, we have had a number of important implementation 
successes, many of them essential to building the institutions called 
for in Dayton:

  <bullet> The package of basic economic laws was passed by the Bosnian 
        national parliament.
  <bullet> Bosnia reached a London Club agreement with its commercial 
        creditors, deeply reducing its debt burden and regularizing its 
        relations with the international financial community.
  <bullet> The outlines of an agreement with the IMF have been reached. 
        This clears the way for a new donors conference, scheduled for 
        next week. At the conference, we expect pledges by the 
        international community of $1.4 billion to continue the 
        reconstruction of Bosnia.
  <bullet> Registration for the municipal elections was successfully 
        completed, resulting in up-to-date voter lists. Over 2.4 
        million Bosnian voters registered. The OSCE, under the able 
        leadership of Bob Frowick, managed this process and thwarted 
        significant efforts at fraud and manipulation.
  <bullet> Agreement has been reached under the ``Open Cities'' program 
        for three municipalities in the Federation to accept minority 
        refugee returns. More such agreements are expected soon.
  <bullet> An agreement to integrate the police in the mixed Bosniak-
        Croat Neretva Canton was signed, clearing the way for more 
        rapid vetting and integration of local police throughout the 
        Federation under international auspices.
  <bullet> Indicted war criminals were captured by international forces 
        in the Bosnian-Serb entity near Prijedor and in the Croatian-
        Serb area of Eastern Slavonia near Vukovar.

    I would like to say a few words, in particular, on the issue of war 
criminals. It is imperative that we establish the principle of 
individual responsibility, not only to fulfill the basic dictates of 
morality, but also to avoid the collective blame that can become a 
source of future conflict. We must drive home to the Bosnian people the 
point that individuals, not populations, were responsible for the 
horrible crimes witnessed during the war.
    The recent capture of indicted war criminals in the Republika 
Srpska and Eastern Slavonia is evidence of international resolve on 
this issue. The position of the United States on this issue is very 
clear. For all parties, we have made compliance with the War Crimes 
Tribunal a prerequisite to our assistance. If local authorities refuse 
to abide by their obligation to arrest indicted war criminals, we will 
continue to look for other ways to secure their capture.
    We are very concerned by the current political crisis in the 
Republika Srpska (RS), where an increasingly anti-democratic climate 
and abuses of police authority are undermining basic human rights and 
implementation of the Dayton agreement. We are working actively to 
ensure respect for democratically elected authority and the expansion 
of independent media to provide objective information to the people of 
the RS. RS President Plavsic's message--that a small group in Pale is 
enriching themselves while the rest of the RS is sinking deeper into 
isolation and poverty--has hit a responsive chord in the RS. It is time 
for Radovan Karadzic to be delivered to The Hague and for the RS 
government to function on the basis of the rule of law, rather than as 
the private fiefdom of corrupt war-profiteers.
    As long as the RS refuses to implement key aspects of the Dayton 
agreement, it will not benefit from the considerable international 
reconstruction assistance presently available to Bosnia. There is 
complete agreement between us and our allies on this point. President 
Plavsic seems to have also understood this message, and seems willing 
to put the larger interests of the Bosnian-Serb people ahead of the 
personal greed of a few in Pale.
    Our successes, so far, have come through the hard work and cohesion 
of the international community. Considerable obstacles remain, however, 
to the goals laid out in Dayton. Many leaders in each of the ethnic 
communities, unfortunately, have not yet moved beyond the war. Many of 
these same leaders are working for personal political and economic 
gain, rather than for the creation of a stable Bosnian state. The 
Bosnian Serb leadership has been especially recalcitrant, but Bosnian 
Croat and Bosniak leaders are also guilty of creating obstacles to 
refugee return and freedom of movement. We will continue our pressure, 
and as necessary increase that pressure, on all parties to fully comply 
with both the letter and the spirit of the Dayton Agreement.
    One of the continuing tragedies of the Bosnian war is the large 
number of refugees and internally displaced people. Dayton is clear: 
everyone has the right to return to their home. But the reality is 
quite different. More than 1.6 million Bosnians remain displaced. 
Approximately 70 percent of them come from areas where they would now 
be in the ethnic minority.
    The U.S. is currently spearheading an effort to promote the return 
of ethnic minorities. U.S. officials--including the Secretary of 
State--have placed significant pressure on Bosnian officials to allow 
ethnic minorities to return to their homes. The U.S. Government has 
offered incentives to communities to accept the return of refugees and 
displaced persons from all ethnic groups.
    While it is still too early to judge, recent positive developments 
suggest that more minorities may return to their homes this year than 
we had earlier thought possible. We are funding minority return 
programs in five communities: three in Bosniak-majority areas, one in a 
Croat-majority area, and one in the Republika Srpska. Intending 
returnees from the minority ethnic group travel regularly and freely to 
all five locations. We anticipate that these programs will enable 
almost 200 families--close to a thousand people to return safely to 
their former homes in areas where they will be in the ethnic minority. 
Programs funded by the European Community and the UN will enable 
additional minorities to return to their homes in these and other 
communities.
    The significance of these returns for Bosnia's future is far 
greater than the numbers suggest. Our objective this year is to destroy 
the myth that Bosnians from different ethnic groups cannot live 
together. The safe return and reintegration of several hundred ethnic 
minorities to areas controlled by each ethnic group will contribute 
significantly to the achievement of this objective.
    One of the priority areas for refugee returns is in and around the 
city of Brcko. Under the leadership of the Deputy High Representative 
and International Supervisor for Brcko, Bob Farrand, we are committed 
to making Brcko a model of reconciliation and reintegration in Bosnia 
We are targeting international resources, both funding and manpower, on 
Brcko to bring this about.
    The U.S. has made a long-term commitment to peace in Bosnia and the 
reintegration of Bosnia into Europe. We have invested a great deal of 
U.S. prestige and resources into creating a peaceful, stable Bosnia. 
This long-term commitment means that we and our allies will continue to 
stay engaged in Bosnia to provide assistance and international 
leadership well beyond the end of the SFOR mandate in June of next 
year.
    The President has always said that the SFOR mission will end in 
June 1998. It is essential, therefore, that we focus our energy between 
now and then on the task at hand: rapid and full implementation of the 
Dayton peace plan. Municipal elections are coming up in September, the 
final Brcko arbitration decision is scheduled for next March. The 
result of these and other events will determine the security 
environment next year and what type of international presence is 
required at that time.
    The international community cannot bring peace to Bosnia by itself, 
only the people of Bosnia can truly bring peace to Bosnia. But we have 
made a commitment to help and we will follow through on that 
commitment. The success of our mission in Bosnia is in the interest of 
the Bosnian people, in the interest of European security, and in the 
national interest of the United States. Thank you.

    Senator Smith. Thank you very much, Ambassador.
    We are very pleased to be joined by two senior 
distinguished colleagues, the ranking member Joe Biden and Dick 
Lugar from Indiana. Senator Biden, do you have an opening 
statement?
    Senator Biden. Well, what I will do, Mr. Chairman, and 
thank you very much, I will make a brief opening statement and 
forego my questions to the end, so I do not take up both here.
    Mr. Chairman, I apologize to the Secretary for being a 
little late, although I caught most of his testimony.
    We have, to state the obvious, four excellent witnesses 
today. We just heard from one, and then we will hear from the 
other three.
    We are rapidly approaching the moment of truth in Bosnia. 
With less than 1 year before the scattered departure of U.S. 
ground troops, the fundamental policy question remains, what it 
has been for the last 6 years, and that is, is putting a 
peaceful, democratic, multi-ethnic Bosnia into place important 
enough to the United States as the head of an international 
coalition to devote enough resources to make it happen.
    Mr. Chairman, until now I regret to say that our answer, 
though unacknowledged, I think, has been no. True, our 
significant and, I think, really incredibly capable fighting 
women and men at the lead, first in IFOR and then in SFOR, have 
succeeded in completely separating the warring armies and 
putting most of the heavy weaponry in containment sites.
    But less noticed, but equally heroic, has been the 
contribution of USAID professionals in delivering 
reconstruction assistance to thousands of Bosnians in desperate 
need of shelter. Unfortunately, however, we have failed 
woefully to enforce critical mandates of the Dayton Accords.
    The overwhelming majority of displaced persons, as you have 
pointed out, and refugees have been unable to return to their 
homes if they lie in territory controlled by another religious 
group.
    And this sad fact means, unfortunately, that the well-
intended and sorely needed reconstruction assistance that USAID 
has delivered has served to reinforce the results of the vile 
ethnic cleansing that was carried out during the war.
    Moreover, as everyone in the room knows, the efforts to 
apprehend indicted war criminals until now has been only 
minimally successful. I credit, quite frankly, Secretary 
Albrights last visit to Bosnia as the reason that everyones 
backbone got stiffened on this.
    I firmly believe that Radovan Karadzic, whom I met 4 years 
ago, and at that time he asked me, along with Milosevic, what I 
thought of him, and I said, to his face, that I thought he was 
a war criminal and should be tried as one. I said it then, I 
say it now.
    I think it is essential, quite frankly, as the Secretary 
may or may not agree. I think absent the apprehension of 
Karadzic and Mladic and their trial before the International 
Court at The Hague, the likelihood of the Republika Srpska even 
being able to stumble along with its present leadership is 
remote. And the likelihood of there being any peace in the 
region after we leave is nonexistent in my view.
    We obviously have the means to capture these two criminals. 
Only the political will has been lacking. I commend our British 
SFOR partners for their exploits last week and for which we 
provided logistical support. And I hope that we will be able to 
coordinate with our French SFOR partners to move against 
Karadzic and Mladic.
    And I am not unaware, as we all are, of the press accounts 
of the threats on the part of the Serbs. That is an old story. 
They are a bunch of thugs. They have been doing that all along, 
and every time we have stood up to them, we have prevailed.
    But I do not want anyone here to suggest that because we 
have done this, it means that there will not be retaliation. 
There may very well be. There may very well be some deaths. 
There may very well be some negative consequences. But no one, 
including me, has suggested that this is cost free.
    Everybody there knows it is a dangerous operation. And I 
pray to God that no one, and particularly no American, loses 
their life or limb as a consequence of what has to be done.
    But it begs the question to suggest that because of a major 
retaliation, we should not act. That was the story that existed 
for 3 years and brought about, I think, the delay in action 
when we had British and French forces on the ground, and every 
time we would suggest that they move, the concern of 
retaliation was raised, which was a legitimate concern. And we 
essentially were numbed into doing nothing.
    And it seems to me, Mr. Chairman, we must be unrelenting in 
our pressure, consistent with what the Secretary said, our 
pressure on Mr. Tudjman in Croatia. I have used this phrase 
before, and my staff and wife do not like me to use it, but he 
is no box of chocolates either. I mean, this guy is not one of 
the good guys. And I had occasion to tell him that, too.
    And the fact of the matter is, he is an impediment, not a 
positive force at this point. And I think he and Milosevic are 
still waiting for the Dayton Accords to fall apart to fulfill 
what they had in mind at the front end, and that is to carve 
Bosnia up into two separate entities, or three separate 
entities.
    And so we have to keep the pressure on him and his forces 
in Herzegovina to become cooperative partners in the Federation 
and to hand over indicted war criminals on Croatian territory. 
This is not just the Serbs.
    So I commend you, Mr. Chairman, for holding this important 
hearing. I am eager to hear the testimony from the other 
witnesses.
    And as I said, I will--you were gracious enough to let me 
deliver my statement late. I will waive against questioning and 
question last, so I do not trespass too much on the committee's 
time.
    Senator Smith. Thank you, Senator Biden. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. I have a 
brief statement.
    Everyone agrees that the NATO at IFOR and the NATO at SFOR 
peacekeeping forces have performed magnificently. There have 
been no combat-related U.S. fatalities since the initial 
deployment of IFOR to Bosnia in mid-December 1995. IFOR and 
SFOR have enforced the cease-fire in the buffer zone separating 
the warring factions and monitored compliance with the terms of 
the peace agreement forged in Dayton.
    The peacekeepers have helped protect civilians and other 
personnel working to reconstruct Bosnia. The initial deployment 
of IFOR was scheduled to terminate after 1 year, but 
implementation of the Dayton Accords proved to be so difficult 
and the likelihood of renewal of fighting so certain that the 
follow-on stabilization force was approved by NATO ministers 
last December.
    The U.S. force was substantially reduced to about 8,500 
troops, most of them in Bosnia. President Clinton announced 
that the duration of this new deployment would be for 18 months 
or until the end of June 1998.
    More recently, the President stated that some international 
force presence may be needed in Bosnia for sometime after June 
1998. Both the House and the Senate, however, recently passed 
legislation agreeing to the June 1998 troop pull out date, 
though the Senate version, unlike the House, does not terminate 
funding after that time.
    Mr. Chairman, we all know the non-military mandate of 
Dayton has not gone particularly well or especially smoothly. 
Secretary Holbrook told this same subcommittee last fall that 
absent an international force presence in Bosnia, lethal 
fighting would almost certainly take place with devastating 
results.
    I fear the situation has not changed much, nor is it likely 
to change very much for the better between now and next June. I 
have followed events in Bosnia closely, and this is my 
summation of the situation.
    Under freedom of movement--there is still no real freedom 
of movement across inter-entity lines. Displaced persons cannot 
return home. And those who fled Bosnia to other countries 
during the war are now being sent back only to find their homes 
destroyed or occupied by others.
    There is no secure environment for the return of refugees. 
The bitterness, anger, and despair have deepened under this 
lack of progress and large parts of Bosnia-Herzegovina are 
still dominated by Serbia and Croatia.
    Under elections--Bosnian elections were held last fall, but 
municipal elections were twice postponed because of anticipated 
violence and widespread fraud. Once elected to municipal posts, 
there is no certainty that those minority elected officials 
will be allowed to serve or, if permitted to serve, would be 
safe in doing so.
    There is no secure environment for the installation of 
elected officials. The seemingly intractable problems in Brcko 
are the most acute, and no resolution to the incendiary 
situation there appears to be imminent.
    Under the category of war criminals--scores of indicted war 
criminals roam the countryside, living off the misery of their 
countrymen. They are protected by well-armed thugs and friendly 
authorities, while undermining legitimate political authority.
    They are running criminal activities which sap what little 
economic vitality exists. They flout the international 
communities, snub their noses at SFOR troops, ignore all 
semblance of the rule of law and retard progress toward 
reconciliation and reconstruction.
    I am convinced there can be no real progress toward peace 
and reconciliation in Bosnia as long as these war criminals 
remain at large and pose an immediate and continuing threat to 
the peace process. The Dayton peace process and the existence 
of war criminals are incompatible.
    Under reconstruction--while there has been some modest 
success in housing, these have been offset by a dismal 
performance, including the absence of a viable professional 
police force. There has been minimal progress in building the 
political and civic institutions needed for a more tolerant and 
multi-ethnic state.
    There have been very few projects that crossed inter-entity 
lines, projects that if successful could begin to bind the 
parties together, heal the breach that exists among the ethnic 
groups and create a real stake in a future integrated state.
    Under rearmament--reducing the lethal environment in Bosnia 
was to be accomplished by reducing the number of heavy weapons 
and by balancing the forces with an international equip and 
train program to the federation side.
    There have been credible reports that the parties have been 
stockpiling weapons and preparing police forces as combat units 
in preparation for renewed fighting once the SFOR departs. And 
once SFOR departs, many, if not most, observers predict the 
violent conflict will start all over again.
    Now, Mr. Chairman, not all the record is as dismal as this. 
As Senator Biden has pointed out, Secretary Albright's 
proactive leadership on this issue has been reassuring. And 
suffice it to say that a failure to assure the Dayton plan in 
Bosnia would not be read as just a failure in the Balkans.
    It would be read as a failure of NATO and a failure of U.S. 
leadership. There can be no positive consequences for U.S. 
interests from that.
    If the Dayton Accords are not successfully implemented 
because of the activities of the war criminals, because 
ordinary citizens cannot enjoy freedom of movement, because 
reconstruction projects do not take hold or because revenge and 
hatred still dominate the sites of leadership, or because the 
international community has diverted its attention, then we can 
expect more turmoil in Europe and much more stress within the 
NATO alliance.
    At a minimum, we need to pay greater and more serious 
attention to implementation of the Dayton Accords, and to 
foreign policy matters in general. That has been lacking for 
some time as we have become absorbed in so many other matters.
    I fear indifference to Bosnia and to the success of the 
Dayton Agreement is creeping into our priorities here in the 
United States.
    Mr. Chairman, I congratulate you. I am pleased you called 
this very important and timely hearing.
    Senator Smith. Thank you, Senator Lugar.
    Mr. Ambassador, I really have but two questions. My first 
one my colleagues have spoken of very eloquently. That is the 
issue of war criminals. When the President went to The Hague to 
celebrate the Marshall Plan, I had the honor of accompanying 
him.
    And while he was engaged in his level of meetings, I went 
to the War Tribunal and talked to the officials there.
    And they were very frustrated. They had over 70 
indictments, but a docket that was emptying quickly. They 
wanted work.
    The British have obviously added one person to that docket 
for trial. And I wonder, as has been stated very well, whether 
peace really has any chance if we do not go get war criminals, 
or are we not then--if we do not, are we just engaging in a 
very expensive cease-fire?
    Ambassador Gelbard. Mr. Chairman, you will have noted that 
in my opening statement I put the issue of war criminals first 
on the list of priorities. I believe that along with the issue 
of public security, which is to say a dramatically reformed 
police system throughout Bosnia, that these two issues of war 
criminals and police are not just priorities but conditions 
precedent to being able to implement the rest of the Dayton 
Agreements.
    There is no question that the continued presence of Radovan 
Karadzic in Bosnia, particularly in the Republika Srpska, is 
creating a fundamental obstacle to implementation past a 
certain point on a whole range of issues.
    The decision by NATO, by the NATO Secretary General, to 
order the operation in Prijedor--and I have to emphasize this 
was a NATO decision. It was not a British decision--was taken 
in carefully and taken in accordance with a careful look and a 
clear look at the SFORs mandate.
    We will continue to look at this issue on a case-by-case 
basis. In the first instance, it is the obligation of the 
parties to comply.
    As I mentioned in my statement, too, and it has often been 
neglected, there was an earlier operation involving a sealed 
indictment just a couple of weeks before involving a man named 
Zlatko Dukmanovic in Eastern Slavonia, who we believe was one 
of the principal authors of the violence in Vukovar in Eastern 
Slavonia in 1991.
    When I met with Munkor Krieshnic, the Serb member of the 
joint presidency in Bosnia, after Dukmanovic was arrested 
there, he expressed enormous indignation about the fact that 
there could be a secret list. I explained to him that in the 
United States and many other countries the use of sealed 
indictments is pretty common.
    And I mentioned that in my previous position as Assistant 
Secretary for International Narcotics and Law Enforcement, I 
was pretty familiar with that. And we think it is a good way to 
proceed, something we have discussed with the prosecutor.
    We want to continue to support the tribunal in every way 
possible, and we intend to do so. We obviously do not want to 
talk about what the options are for the future.
    Senator Smith. But you are assuring us that you are 
proactively----
    Ambassador Gelbard. We are.
    Senator Smith.--engaged in the apprehension.
    Ambassador Gelbard. We are active in every aspect of 
thinking on this issue. Senator Biden mentioned Croatia. I had 
mentioned Croatia in my own statement. I fully agree with you 
that the Croatian government is not doing enough.
    And that is why the U.S. Government has taken the lead in 
putting enormous pressure on Croatia, particularly, but not 
only, to use its influence to hand over Bosnian-Croat 
indictees, as well as to turn over people who are in their own 
territory.
    We hope to get strong support from our allies on this. And 
we are looking for every means possible to assure that these 
people will be turned up for trial in The Hague.
    Senator Smith. Second, as you listen to Senator Lugar's 
list of the difficulties, I wonder how realistic June 1998 will 
be in terms of withdrawal. And yet that is the date that the 
American people have been told we will in fact withdraw.
    But I wonder if, in the administration or in NATO, are 
there active plans ongoing now about our staying beyond that.
    Ambassador Gelbard. Well, there are sensitive issues here. 
I fully agree with Senator Lugar that there has not been nearly 
enough--well, all of you have said have said this, but I said 
it myself, that there has not been nearly enough progress in 
implementation of the agreements.
    We should not allow ourselves to fall into a trap, though, 
of blaming ourselves. Fundamental in the first instance, the 
obligations are with the parties to comply. These are the three 
parties within the country and Croatia and Serbia outside the 
country.
    They have tried to engage in mutual blocking of efforts, 
game playing of all kinds, to prevent infrastructure 
development to prevent all the kinds of fundamental priorities 
that Senator Lugar and all the rest of you, and I, mentioned in 
our statements.
    The mandate for SFOR ends in June 1998. We have to 
concentrate on the task at hand, which is doing as much as we 
can between now and June 1998. But our commitment does not end 
then. What we need to do is try to develop the process to the 
point that as many of the various aspects of this become self-
sustaining and the parties understand that they themselves have 
an enormous amount to lose if they are not complying.
    A military presence is not the only factor here. The 
international community will walk away with its money, will 
walk away with other kinds of support, if they do not comply.
    At the donors conference next week, I do not expect that we 
are going to be prepared to give the Pale group money out of 
our pockets given their corruption and given their illegal 
behavior.
    What I hope to be able to do, and I will be the head of the 
U.S. delegation, is perhaps establish an escrow account for 
them and say: We know you need money. The poverty level in the 
Republika Srpska has increased dramatically.
    We do not want to see poverty, but we are not going to give 
you our taxpayers money until you comply with the agreements, 
and not selectively either.
    Senator Smith. Thank you. Let us go to Senator Hagel. Do 
you have some questions?
    Senator Hagel. Mr. Chairman, thank you.
    If I could follow on to what the Chairman was talking 
about, Mr. Ambassador, in your remarks and what you were 
referring to about what happens after June of next year, could 
you take us through a little bit of what you would see as how 
we would stay behind, the infrastructure of people, the 
mission, troops in southern Hungary?
    Certainly you have to think about that a little bit. What 
kind of presence are you and the administration thinking about 
that you would leave behind?
    Ambassador Gelbard. I have to admit, Senator, that we have 
not yet started thinking about this issue or having any formal 
discussions about it. I am sure there is some thinking going on 
in individuals' minds, but there have been absolutely no formal 
discussions about any such possibility yet.
    What is clear is that we are concentrating on what is 
happening between now and June. And that is going to be hard 
enough, to be very honest with you.
    Senator Hagel. Well, you know, I was there 2 weeks ago and 
spent some time with you. When we spent the day there, it was 
obvious that this was not a kind of a game.
    And I think everybody who has been there understands this 
kind of mission, that in fact after that magic date comes in 
June, something is going to have to be left behind, some kind 
of an infrastructure, because we have a rather significant 
investment, as you know more than anyone, as do our allies.
    And I would hope that you start to focus on some of that, 
because this is all part of the planning process. And you are 
talking about a donors conference coming up next week. If I was 
in the position of being a donor or entertaining the 
possibility of investing in that part of the world, I would 
want to ask that question, and I would want some answers.
    And I would think--Bob, you know this, and I know that you 
cannot say as much as maybe you would like to say here, but 
this is to me very critical, because if you expect support from 
this Congress, and you have already seen what has happened, as 
Senator Lugar has talked about, those are the kind of questions 
that are going to be asked, hard questions like that, if 
nothing else to protect our investment over there.
    Ambassador Gelbard. Senator, we are very well aware of 
that, obviously. It is clear that there will be an 
international presence in Bosnia after June 1998.
    We are still working on the issues right now of both the 
immediate crises, particularly things such as the current 
Republika Srpska crisis that you and I discussed before the 
hearing began, the issue of security for the international 
community, which is a problem which we encounter today, 
unfortunately.
    Looking out over the next several months, in terms of SFOR 
and troop levels, as well as concentrating with real 
seriousness on accelerating the civilian implementation as much 
as possible, we certainly will be addressing the future, there 
is no question, in the coming months. And I would be very happy 
to come back and appear before this committee at that time. But 
as I say, we have not quite yet.
    Senator Hagel. Changing the subject a little bit: return of 
ethnic minorities. Could you give this committee a little more 
definition than what you alluded to in your statement?
    Ambassador Gelbard. This is a very high priority for us. We 
have been working as closely as possible with the U.N. High 
Commission on Refugees to make sure that all our programs are 
in synch.
    We have the added advantage of leverage through the use 
funds, giving aid or not giving aid.
    Recently, in fact, I met with some of the Bosnian-Croat 
leadership and explained to them that we had made offers to a 
number of communities in Central Bosnia to provide significant 
economic reconstruction assistance, assuming they agreed to the 
return of refugees and displaced persons. This included Muslims 
and Serbs.
    Most of them did agree; some did not. The ones that do 
agree get money; those that do not get nothing. We are now on 
the edge of having a plan with the Croats for refugee returns 
for the entire Canton of Middle Bosnia. That would be a very 
important step.
    There have been, I think, about a dozen communities that 
have now agreed to such planning, and in even some of the 
communities that have surprised people.
    There is a town called Stolac, S-t-o-l-a-c, where there has 
been a dramatic flow of return of Muslim refugees recently. 
There have been other towns held by the Bosniaks, the Muslims, 
Vares Bgwano, where we have seen big increases of returns of 
Serbs and Croats.
    So we are keeping--we want to keep the pressure up to make 
sure this works, and we have been very pleased to see that our 
European allies have very much the same view we do.
    Significant problems remain in the Republika Srpska, as I 
alluded to in my statement. We have been working on what we 
call this open cities program, and we have gotten agreement of 
a number of mayors in key towns, such as Shepovo. 
Unfortunately, but not surprisingly, the Pale group have 
opposed this. Mrs. Plavsic supports it. And we are working to 
try to make this a reality.
    The key problem is in Brcko, as you know. And there we have 
concentrated a lot of U.S. efforts with an American citizen, a 
Foreign Service colleague of mine, as the supervisor for Brcko. 
We have as a goal the return of up to 2,000 families by the end 
of next year.
    A really important symbol, as I mentioned in my statement, 
is to achieve the return of Sarajevo as a multi-ethnic city.
    And here I intend, and I know the rest of the international 
community intends, to continue to put more pressure on the 
Bosnians in order to make this happen, so that Serb and Croat 
former residents can return to their homes.
    This is a very high priority for the President, and we are 
going to make this happen.
    Senator Hagel. Mr. Ambassador, thank you.
    Mr. Chairman.
    Senator Biden. Mr. Ambassador, a couple things I need to 
touch on quickly, and then I have a few questions you might 
expand on.
    Is there any doubt in your mind that the Dayton Accords 
provide for the ability of military forces, in this case SFOR, 
to be able to apprehend war criminals? The allegations and the 
context of the allegations in this forum by one of our 
colleagues, who is a strong opponent of our involvement in 
Bosnia, is characterizing the British action as mission creep; 
i.e., not within the purview of responsibility or the authority 
of military forces in Bosnia to have, in one case, shot and the 
other apprehended an indicted war criminal.
    Ambassador Gelbard. Obviously there was serious examination 
of the NATO--of the SFOR mandate before this operation 
occurred, and there is----
    Senator Biden. SFOR as laid out in Dayton.
    Ambassador Gelbard. The SFOR follows from, flows from 
Dayton.
    Senator Biden. I know. That is a very important point, 
though, to make sure we----
    Ambassador Gelbard. That is right. And there is absolutely 
no question in our minds, in the minds of the NATO Secretary 
General and the minds of the British government and in the 
minds of SACEUR that the SFOR troops were acting within their 
mandate and under legitimate legal authorities.
    Now I understand Dayton. Dayton gives the primary 
responsibility for apprehending war criminals to the local 
authorities. But in the event that they do not, it gives--there 
is the ability of, within the mandate, of the NATO forces to 
take such action.
    We look at--there are several, there are multiple 
instruments which lay out the authorities for this to happen. 
We have looked at this very carefully. Dayton--the U.N. 
Security Council resolution which clearly authorizes 
apprehensions, if necessary, the implementing regulations of 
the tribunal and the SFOR mandate.
    So all of them make----
    Senator Biden. The only thing that is operative is the 
political sense. My colleagues and I, we all are basically of 
one mind here. You are not getting an accurate reflection of 
the sense of the Senate from the four of us. We may have 
differences in degree in how we approach these things, but I 
think we are pretty--we are basically seeing it from the same 
angle and probably the same page.
    Just so you understand--I know you do understand, but I 
want to make it clear for the record, that the legitimacy of 
our presence in Bosnia is tethered in the minds of many of our 
colleagues, not to any U.N. resolution, not to anything other 
than Dayton, where we participated, we were involved, we were 
the prime mover.
    And so if it is not in the Dayton Accords, it is going to 
be argued that it is not within the delegated authority of the 
United States, the President of the United States, vis-a-vis 
the Congress, having authorized him to use American forces 
abroad. This is the indirect way in which this connects. And so 
that is why I focus on Dayton.
    Ambassador Gelbard. We are very comfortable about the 
authorities that derived from Dayton.
    Senator Biden. Now, the other point is that you gave, Mr. 
Ambassador, a very thorough and a very State Department-like 
answer to the chairman about what you would do in terms of 
apprehension.
    Ambassador Gelbard. And we are doing all in our power, 
Senator. The fact is that, at least in the French sector, it is 
not--no one has to go searching for Mladic or Karadzic. No one 
wonders where they are. I mean, they walk down the street. They 
are seen in broad daylight. They are--it is not like they are 
members of the IRA, you know, running from safe house to safe 
house.
    Senator Biden. So I am going to have to be a little less 
diplomatic. If in fact an indicted war criminal, sealed or 
unsealed indictment, in effect walks under the nose of American 
military personnel, is it their--are they authorized to or 
directed to apprehend that person?
    Ambassador Gelbard. The SFOR mandate makes it clear that 
SFOR troops have the authority to apprehend indictees whom they 
come across.
    Senator Biden. They have always had the authority. And I 
will not embarrass you by pursuing it beyond this. They have 
always had the authority.
    As we all know, and notwithstanding the fact that there are 
a number of countries involved in SFOR, there is an American 
commander who commands an American force located in a specific 
geographic location. And that commander takes his orders from 
an American, a part of the NATO force.
    Moreover, what does an American captain think when he or 
she is sitting in a coffee shop and Mladic walks and sits down, 
you know, across from them?
    I am not being facetious. It sounds like I am, but I mean, 
I am not. I mean, that is not as likely to happen now as it has 
been happening. But is there any clear understanding on the 
part of American military forces as part of SFOR what they 
should do when they--if they were to stumble upon an indicted 
war criminal?
    Ambassador Gelbard. Yes.
    Senator Biden. Can you tell us what it is?
    Ambassador Gelbard. I would rather not get into anything 
operational. Let me just say, Senator, I think it is 
important----
    Senator Biden. You have said enough.
    Ambassador Gelbard. I think the important point is a 
broader point.
    Senator Biden. To you it is, not to me. The important point 
to me is what I just asked you. That is important to me. Now 
you can go and tell me what is important to you.
    Ambassador Gelbard. Thank you. What has occurred over the 
last few months has been a dramatic acceleration of much more 
aggressive action on the part of the U.S. Government and the 
allies in all aspects of our policy. I started to talk about 
this in my statement.
    When I took this job at the request of the President, I 
undertook a review of how we could accelerate and have much 
more effective implementation. President Clinton, Secretary 
Albright, Sandy Berger, Secretary Cohen, and the other relative 
members of the National Security Cabinet have all been working 
very closely to make this happen.
    Senator Biden. And some have slightly different views than 
the one you made, because we all know each of them personally. 
We all know they are not singing from the same hymn.
    Ambassador Gelbard. I actually think they are, sir. Our 
allies now are strongly in synch with us, and we are working 
very closely to use every bit of conditionality, leverage, and 
linkage we have. I do not think it is any coincidence that over 
the last 3 months now we have seen a serious acceleration in 
terms of the use of this conditionality, as well as suddenly a 
couple of cases of apprehensions.
    Senator Biden. For that, I compliment you. I read it the 
way you state it, that it is a, if not change in policy, a 
decision to be more forceful in implementing the policy. I 
think it is your leadership and the American leadership that 
put the British in the position to take the action they took.
    I hope it is a continued acceleration, because you know 
better than we, we do not have much time. Between now and the 
time the Dayton withdrawal is set--and I will come back to 
that, if we have a second round--there is going to have to be a 
heck of a lot more progress. And I am not being critical. I am 
being supportive.
    Ambassador Gelbard. I fully agree with you, Senator.
    Senator Biden. Thank you.
    Thank you, Mr. Chairman.
    Senator Smith. Senator Lugar.
    Senator Lugar. Ambassador Gelbard, if more criminals came 
to the tribunal, is the tribunal ready and able to handle the 
job? From time to time there are thoughts that they might not 
be. What is your general impression of the tribunal that would 
try these people? And are they likely to be able to do that?
    Ambassador Gelbard. We are concerned that the tribunal does 
need more surge capacity. As was pointed out fortuitously in 
today's Washington Post, we have been very concerned about a 
U.N. ruling which forced us to remove people that we had 
offered to the tribunal, people who we were sending on detail.
    Other governments have had the same experience. I believe 
this came about because some other governments objected that 
only the richer countries could afford to do this. But we had 
prosecutors, investigators, Foreign Service people, we had 
others, who were detailed there.
    Not only that, but the U.N. was charging us 13 percent 
overhead for each individual. So the more we cooperated, the 
more it cost us. There is something wrong with that.
    We hope to get that changed, and I am personally working 
very hard on this, as is Secretary Albright, who also visited 
the tribunal during that visit to The Hague. I am in close 
contact with the chief prosecutor, and we are trying to do 
everything to help her.
    Senator Lugar. I appreciate that response and the detail of 
it. The general public listening to all of this must assume 
that there is a court all set up waiting for action to occur. 
But as you suggest, there is, in a way, but not set up well 
enough for a surge capacity.
    What if we were to become active in the country and several 
people not only were indicted but apprehended, and the world 
then watched as these people are assembled and there is no one 
there to try them?
    Ambassador Gelbard. I think, Senator, that now with some of 
the concrete results that the tribunal has been showing, such 
as the 20-year sentence that Totej just received, recent 
apprehensions in Eastern Slavonia and Republika Srpska, the 
other current trials that are going on, there is more concrete 
proof to the U.N. management, as well as to U.N. member 
countries that these people are serious.
    Justice Louise Arbour, the chief prosecutor, is 
outstanding. There is also a former Los Angeles prosecutor who 
is working for her name Terry Bowers. There is a former Federal 
judge who is also one of the judges on the tribunal who is also 
doing an outstanding job. But we want to make sure that they do 
have this capacity.
    Senator Lugar. This hearing gives us a good opportunity, 
that is, those of us who have frustration about Bosnia, to 
communicate. And so I wanted to do that for a moment just in 
general, because it took some time before the United States 
decided to come involve in this Bosnian issue.
    And we did so at the behest of our friends, and finally 
because we saw, through NATO, a way of becoming engaged and 
doing so effectively.
    Throughout this time, there always has been the question, 
first of all, whether we were going to be involved and then how 
long. In the last hearing we had in October of last year, the 
administration witnesses were reticent to say very much.
    Without assigning praise or blame, the fact is we needed 
Secretary Holbrook, who is much more forthcoming, to spell it 
out as he saw it from outside the administration; he indicated 
we would be there. The President did not indicate this until 
after the election.
    In my judgment, he could have done so many weeks before, 
but he did so after. This brought a certain amount of cynicism 
which we are now dealing with again.
    The dilemma again and again for our government is not only 
the American public and their understanding of what the 
President is saying and what we are all saying, but our allies. 
The fact that, simultaneously, as you more than anybody else 
knows, we are in the process of integrating three new nations 
into NATO, and a whole new situation will be coming before the 
Senate about the same time next year that this June withdrawal 
deadline is approaching.
    And this is a source of concern for everybody. The 
credibility of this is of the essence now. This is why many of 
us are pressing for clarity and leadership. Clearly there is 
debate, and has been in the administration, as to what we do. 
For a long time the thought was that we have military forces, 
and they have done their job and done a good job. They have 
separated the forces. They have kept the peace.
    But they have also stayed out of harm's way, and with no 
casualties. And that is a very important objective for all 
Americans, to minimize casualties. But if that is the basic 
objection, then we have a problem.
    And clearly, we have a problem in the Senate among senators 
who would say that apprehending indicted war criminals is 
mission creep, in essence, it is going out and apprehending 
somebody and taking risks well beyond what we ought to be 
doing.
    And this is why we have to wrestle this to the ground both 
in the Senate--better doing it with the administration, better 
out there in NATO. But my judgment is that it has not yet been 
wrestled to the ground.
    When this occurred the other day with the violent instance 
in the British zone, it was a flash point here in which some 
people took sides and said, thank goodness, somebody finally 
saw the light, but others said this is dangerous, you had 
better cut this off right now.
    No, we do not have a consensus, and the President has to 
lead on this. And, you know, I am hopeful that you will offer 
some counsel to him.
    Ambassador Gelbard. First, the President, I think, has been 
showing extraordinary leadership on this issue. When he asked 
me go through this administration review on policy, we ended up 
going through this in great detail with him personally.
    We had two meetings with him in which I have been present, 
long meetings where we have gone through it. He has been deeply 
engaged on the Bosnia issues, as recently as this weekend, when 
he spoke out very strongly, or this week when he spoke out very 
strongly, on these issues.
    He deeply cares about and is tremendously informed about 
the issues in Bosnia and is determined to make this a success. 
That is why he took the lead in instructing Secretary Albright 
and appointing me to make this work. And I am determined to 
make this work.
    There is no mission creep involved. I want to be very clear 
about what happened last week. That was not mission creep. As I 
said, it was within the mandate. Our military are not fighting 
in any way. Our military and SFOR as a whole are deeply 
involved in many aspects of implementation, and I am 
tremendously proud of them.
    General Crouch, who is the current SFOR commander, has done 
an outstanding job, as has General Meigs, who is the American 
commander in NND North, who is just leaving, I think. They have 
shown enormous leadership, and now I think the same thing could 
be said with General Joulwan, who just left, finished his term 
at SACEUR last week, whom I had worked with in Latin America 
before that.
    With the arrival of General Wes Clarke, who was involved 
with Dick Holbrook in the Dayton negotiations, we have somebody 
who is equally knowledgeable about all these issues. And I have 
already been holding extensive conversations with him. I am 
seeing him next week again.
    We are also working very, very closely together. Literally, 
the last thing I did in my office before coming here was to 
take a call from General Shalikashvili, and we were talking 
through various aspects of these issues.
    We are really working very closely to make this a success, 
and there is a sense of real urgency about precisely what you 
are discussing.
    Senator Biden. Mr. Chairman, with your permission, could I 
intervene to followup on something the Senator said?
    You have named four people. I would only indicate to you 
that I spoke to one of them at length recently, of the 
principals you named. And that particular person told me that 
in addressing our colleagues in NATO and their representatives, 
their perm reps, he put a list on a board.
    And he said, ``Now, these are the indicted war criminals. 
We can get each of those people. I need to know, though, that 
if the military in SFOR takes that action, that there will be 
political support from all of you for having done that. Now how 
do you vote?''
    And he said the room was deafeningly silent, not a single, 
solitary NATO representative said: Go get them, Charlie. None.
    This particular military man turned to me and said, ``Joe, 
you keep pushing for this action. I do not disagree with you. 
But there is no political will.''
    Admittedly, this was 2 weeks ago or longer. Admittedly, 
there has been at least one instance of change. I think what 
the Senator is saying--please correct me, Senator, if I am 
wrong--is unless the President of the United States says: We, 
the United States, and we, the NATO forces, have as a policy 
the apprehension of these indicted war criminals, then we are 
going to be in this netherland.
    Well, Senator Kay Bailey Hutchison, whom I have great 
respect for, stands up and introduces legislation and talks 
about all this mission creep right after I stand up and say, 
``Go get them. Great.''
    I am not suggesting at this point that I am right and she 
is wrong, only to reinforce the point of the Senator from 
Indiana. So the whole place in the Senate kind of breaks down, 
and people are coming up to--I am not sure I speak for all of 
them, but some know we are all deeply involved, and they assume 
that we have some knowledge of Bosnia and they say, what is the 
deal. I mean, did they do the right thing? Did they do the 
wrong thing?
    As you know, there is a division of labor up here. When I 
want to know something about the tax bill, I can go speak to 
Senator Roth or someone else, or if they want to know something 
about foreign policy, they come to people who hopefully they 
have some respect for.
    And they say: Well, gees, I do not know. So and so just 
said such and such.
    I realize I am being awfully anecdotal here, but I hope--I 
have a friend named Bob Gold, great guy--we went to school 
together, and I still work with him.
    I will say, ``Bob, do you understand?''
    And he will look me in the eye, and he will say, ``Joe, I 
not only understand, I overstand.''
    You probably overstand the point that we are making here. 
But something definitive has to----
    Ambassador Gelbard. Senator, all I pointed out to you is 
that I have a pretty good guess who that military man might 
have been.
    Senator Biden. I am sure you know exactly who it is.
    Ambassador Gelbard. Yes. First, the fact remains, as you 
yourself pointed out, that the operation in Prijedor did take 
place 2 weeks later. And those very same perm reps knew about 
this and approved it.
    Senator Biden. Good.
    Ambassador Gelbard. So I rest my case.
    Senator Biden. Well, no.
    The perm reps knew about it, and they signed on. I say 
hurrah, great, let us let everybody know that, because the way 
it was played up here, it was like a great play. I should not 
say ``was played.''
    The way it came across was, you know, Madeline went over 
there, and Madeline started to bark. And that emboldened some 
folks to act. The Brits acted with our knowledge, and they 
moved.
    I am sitting here saying, ``Is this the beginning or is 
this the end of the beginning?''
    You just said something that I----
    Ambassador Gelbard. I am not going to be in a position to 
tell you whether this is about operational issues. I will say 
to you, though, once again, this was an SFOR operation done 
under the authority and at the instruction of the Secretary 
General of NATO. And it should be clearly understood as such.
    It was not an independent British operation. It was not an 
independent British/U.S. operation. This was an NATO/SFOR 
operation.
    Senator Biden. Thank you very much. Thank you for allowing 
me to interrupt.
    Senator Smith. Are there further questions?
    Senator Biden. I have one further question, because I think 
this particular witness may be the most qualified to answer it, 
if I may. And maybe you spoke at the beginning of your 
statement about this. If you did, I apologize, and I will read 
in the statement about what I am about to ask you.
    There have been institutions through the good work of this 
administration and NATO that we have attempted to set up. One 
is the tripartite presidency. One is the Muslim/Croat 
Federation. There is the council of ministers. There is the 
parliamentary assembly and so on.
    Can you give us some sense as to how much--I have to write 
this down. Military operations, I think we have all said, have 
been remarkably successful, and geared to what the public 
thinks is, and views their responsibility to be, separate the 
warring factions, stop the carnage, et cetera.
    Then there is the aid and reconstruction piece of this 
operation, which has been less successful because we have 
rightfully, in my view, not gone forward with some of it 
because the conditions precedent to going forward have not been 
there; I.e., resettlement, et cetera.
    There is a third piece, the political piece. And I do not 
know--I am artificially separating them, but there is the 
political piece. The political piece is the Muslim/Croat 
Federation; is there a limited joint military command that is 
actually training together and actually doing something?
    Is there an actual functioning of the central bank that has 
some cohesion to it?
    And so if you could just for a moment talk to us about the 
success barrier or the status of the maturation of any of these 
institutional structures that are designed to bring about a 
political apparatus that can be in place whenever it occurs.
    Ambassador Gelbard. I talked about this a bit in my opening 
statement, but let me go into more detail on this.
    First on the joint institutions, they have begun to develop 
in a reasonably positive way. We are now seeing the joint 
presidency functioning, actually producing good results. It was 
not easy at the beginning, but now they are actually doing it.
    And concrete examples of that are the central bank and 
single currency law, which I brokered, along with my colleague 
David Lipton of the Treasury. The central bank will be up and 
running fully by September, but it does exist.
    Single currency. Unfortunately, Mr. Krieshnic held out on 
currency design at the last minute and had some designs that 
were not acceptable. But we are pretty close on that.
    There is now a national budget for the first time. There is 
a national tariff and customs regime. And we are seeing other 
institutions beginning to function.
    I mentioned that the three parties did successfully and 
together negotiate a debt rescheduling agreement that was 
outstanding for their benefit with the commercial banks a 
couple weeks ago. They have now done all the substance for an 
IMF agreement, which is important.
    The co-prime ministers are working well together, Solosich 
and Bosich. And we are beginning to see some--the joint 
parliament has approved all these laws that we are seeing.
    The one joint institution which still has not quite taken 
place is the standing committee on military matters, which had 
its first meeting when Secretary Albright and I visited. The 
Serbs are holding out again right now, but General Crouch and I 
have been lobbying together to make this work in the right way.
    In the Federation, we are seeing very positive developments 
based on the Washington agreement. The train equip program that 
we run is moving exceedingly well.
    Senator Biden. Is it?
    Ambassador Gelbard. Yes.
    Senator Biden. Now is that a change from just 4 months ago?
    Ambassador Gelbard. It is a change from about 6 months ago.
    Senator Biden. Six months.
    Ambassador Gelbard. We have seen dramatic progress, thanks 
to Ambassador Pardew's efforts and efforts of others. Really 
good work by the MPRI contractors, good cooperation between the 
Croat and Bosniak sides. And they just reached agreement on the 
set of ranks within the military, but it is functioning well.
    Senator Biden. And it is integrated.
    Ambassador Gelbard. It is integrated. They have agreed on 
ratios of staff at all the various levels between the two 
groups, generally at 2.5 to 1, more or less.
    The Federation police, we have now established a Sarajevo/
Canton police. We made a tremendous breakthrough thanks to the 
efforts of our charge, Bob Becroft, and my pressuring the 
Croats in particular in direct at Canton, which is where Mostar 
is. That agreement was signed on the 16th finally.
    Once we get that up and running, which we expect will 
happen on July 21--and I have to say, the Croatian government 
did finally help on this a lot. We see this as the gateway to 
the Cantons.
    Senator Biden. Well, I have taken more time than I should. 
That is the most encouraging, your last litany is the most 
encouraging thing I have heard.
    Ambassador Gelbard. One last point, economic aid. While we 
are withholding it in the Republika Srpska, we are also not 
getting any progress there on the police because they have this 
old line, Communist style repressive police, and we are 
insisting on the form. Otherwise they are not going to get 
anything from us.
    We do have good economic reconstruction progress in the 
Federation, and employment has increased 50 percent in the last 
year. We are seeing good export agreements that have now been 
signed with Croatia. They are exporting energy through the 
joint energy grid.
    So there is a lot of room for hope here, although we are 
still obviously not there yet.
    Senator Smith. Ladies and gentlemen, there is a vote on the 
Senate floor. We have about 5 minutes to get to it. And so we 
are going to take a seventh inning stretch, and we will be 
right back with our second panel. So thank you.
    Ambassador, thank you very much. [Recess.]

   STATEMENT OF HON. MORTON I. ABRAMOWITZ, ACTING PRESIDENT, 
                   INTERNATIONAL CRISIS GROUP

    Ambassador Abramowitz. Mr. Chairman, Members of the 
committee.
    Thank you for inviting me to participate at this hearing. 
Bosnia has been a subject of deep interest to me for a number 
of years.
    I have not prepared a formal statement, but as Acting 
President of the International Crisis Group, I would like to 
submit for the record a brief status report on the 
implementation of the Dayton Peace Agreement, which was put out 
yesterday by our International Crisis Group team in Bosnia.
    Mr. Chairman, I returned from Sarajevo last Friday and 
would like to make a few points very briefly.
    First, I believe we are at an important juncture in the 
implementation of Dayton which can lead to greater progress 
than we have seen so far. That is largely due to the change in 
policy which permits SFOR to actively seek out and arrest 
indicted war criminals.
    Also very important is the political turbulence in 
Republika Srpska. President Plavsic's statement that many of 
the former and present leaders of Republika Srpska are crooks 
is remarkable.
    I believe the impact of economic restrictions on Srpska has 
been greater than I imagined. Economic straits offer hope that 
leaders will be generated within Republika Srpska who are 
prepared to cooperate with the West in implementing Dayton so 
that they attract Western assistance. Whether or not this will 
happen is obviously uncertain, but to me prospects seem a 
little more promising than 3 months ago. Arresting war 
criminals, however difficult, remains a key to progress.
    Second, though things may be somewhat more promising, they 
are unlikely to change sufficiently by June 1998 to allow a 
withdrawal of NATO forces. A premature withdrawal would 
undermine the progress that has been made and likely lead to a 
renewal of hostilities.
    I recognize the concern of many in Congress on continuing 
to keep U.S. forces in Bosnia, but I believe that Congressional 
insistence on withdrawal by June, 1998, undermines 
reconciliation and reconstruction in Bosnia, reinforces 
nationalist leaders' unwillingness to cooperate with Dayton, 
and undercuts the West's huge moral and material investment in 
Bosnia. I think Congressional insistence is a big blow to 
successful implementation of Dayton.
    Finally, I believe Serbia and Croatia are crucial to real 
progress in Bosnia in Dayton implementation. It is extremely 
important to continue to withhold international lending and 
financial assistance to these countries. The administration 
only recently got religion until they seriously cooperate in 
the implementation of Dayton.
    I would like to make two other points which are not in my 
statement, having listened to the testimony. First, I think the 
administration, any administration, occasionally speaks with 
forked tongue. And this Administration is no different than 
many other administrations.
    Referring here to Dayton and to their perspective on 
Dayton, when they do not want to do anything in the case of war 
criminals, they say it is incumbent on the parties. And that 
was their position for 2 years. Now, you know and I know when 
Dayton was signed; and although it says the parties were 
responsible for turning over indicted war criminals, nobody 
believed the parties, nobody believed the war criminals who 
controlled the governments would give themselves up.
    If anything were to be done, it had to be done by the 
outside world. And finally that is beginning to happen.
    Second, part of the problem of getting action on war 
criminals is, as you well know, although it is not discussed 
here, is the Pentagon. The Pentagon has refused for a long time 
to go after war criminals, to expand the mission, to expand the 
mission into a robust one. That has fortunately changed, at 
least in regard to war criminals, and I am pleased to see it.
    That is all I have to say, sir.
    [The report referred to by Ambassador Abramowitz follows:]

         Review of the Dayton Peace Agreement's Implementation

                         16 July 1997, Sarajevo

              [prepared by the international crisis group]
I. Introduction
    The fortunes of the peace process and prospects for a lasting 
settlement in Bosnia and Herzegovina have been improved in the past 
month by the successful arrest of an indicted war criminal and the 
political turbulence in the Republika Srpska. The cycle of impunity 
which had hitherto characterised the wars in the former Yugoslavia has 
been broken. The psychological impact cannot be over-estimated. Though 
implementation of the Dayton Peace Agreement (DPA) has to date been 
disappointing, a window of opportunity has now been opened. Moreover, 
the 12-month countdown to the withdrawal of NATO troops in June 1998 no 
longer appears set in stone. The DPA is a complex treaty ending a long 
and bitter war and its successful implementation requires a firm, 
ongoing, long-term commitment. Without such a commitment, the 
nationalist leaders will be able to obstruct implementation in the 
expectation that they can outwait the international community.
    The momentum which has been generated in recent weeks will be lost 
unless it is backed up with further arrests and, critically, a public 
information campaign explaining carefully to the Bosnian public the 
rationale behind this new policy. To ensure that the Dayton Peace 
Agreement does go down in history as the treaty which ended the Bosnian 
war, and not simply the start of an expensive cease-fire, the departure 
of NATO troops must be tied to the completion of the overall mission--a 
sustainable peace in Bosnia--not an arbitrary deadline.
II. Co-operation with the International Criminal Tribunal for the 
        Former Yugoslavia
    Following 19 months of resistance by the authorities of Republika 
Srpska, Croat-controlled parts of the Federation, Croatia, and the 
Federal Republic of Yugoslavia (FRY), NATO moved to arrest indicted war 
criminals. In a bold and unprecedented action on 10 July, British SFOR 
troops arrested Milan Kovacevic and killed Simo Drljaca in a shoot-out. 
Both men were indicted for genocide, though their indictments had not 
been published. These operations have given new credibility to the 
International Criminal Tribunal for the Former Yugoslavia (ICTY). 
Though the number of indictees who have been brought to justice remains 
modest--of 78 named indictees, ten are in custody, while one who had 
been in custody has died, and one was killed resisting arrest--there is 
an expectation of more arrests.
    Only the Bosniacs have handed over all indictees in their 
jurisdiction. Croatia has turned over two out of 18 indictees believed 
to be within Croat-controlled territory. In May, Croatia surrendered 
Zlatko Aleksovski, a Croatian Macedonian, but only after the US 
threatened to block a $500 million World Bank loan. And former Bosnian 
Croat general Tihomir Blaskic ``voluntarily'' gave himself up after 
intense pressure was brought to bear on Zagreb. Nevertheless, Croatia 
continues to harbour key indicted war criminals, in particular Dario 
Kordic, in territory it effectively controls. Meanwhile, the FRY and 
Republika Srpska refuse to co-operate with ICTY.
    The phenomenon of sealed indictments has contributed to the change 
in fortunes of ICTY. Instead of publishing indictments, ICTY serves the 
indictments and arrest warrants to SFOR. Even before the operation 
against Kovacevic and Drljaca, ICTY had achieved an initial success 
with its new policy by arresting Slavko Dokmanovic, a Croatian Serb 
former mayor of Vukovar, in Eastern Slavonia in June. The policy has 
led to much speculation about future arrests.
    The Bosnian Serb media have reacted predictably and are attempting 
to use the arrests to rally Bosnian Serbs behind Radovan Karadzic, both 
in his internal power struggle with Biljana Plavsic and against the 
international community in general. To build on the momentum generated 
by these operations, it is critical to launch a sustained public 
information campaign explaining the significance of the action to all 
Bosnians, and in particular to Bosnian Serbs. Unfortunately, 
international organisations have focused their media resources on the 
handful of foreign journalists in Sarajevo and operated exclusively in 
English. Until now, there has been no ``hearts and minds'' campaign. 
However, this policy seems to be in the process of change. After the 
arrests, SFOR published one-page advertisements in the local press 
explaining the reasons for the arrests in the Bosnian languages. This 
effort must be expanded.
III. Republika Srpska
    The leadership of Republika Srpska has been stunned by NATO's 10 
July operations, and it seems unsure about how to respond. The fact 
that British troops within SFOR carried out the action has been 
especially disorienting since the Bosnian Serb media have generally 
portrayed the British as their eternal allies. Nevertheless, there have 
been no serious reprisals to date save three token bombings which 
appear to have been set deliberately to avoid casualties.
    The arrests come on top of a long-running internal power struggle 
in Republika Srpska. In essence, the battle is between the nationalist 
Biljana Plavsic and the opportunists Radovan Karadzic and Momcilo 
Krajisnik. The conflict has been evolving over many months, but it came 
to a head at the beginning of July after Plavsic ordered the dismissal 
of the Republika Srpska Interior Minister. Plavsic's objection to 
Karadzic and Krajisnik is that they are ``raping'' Republika Srpska 
economically and are, in the process, harming long-term Serb interests. 
After her brief but humiliating detention in Belgrade, Plavsic went on 
a remarkable media offensive giving details of financial 
misappropriations by Karadzic and Krajisnik, and Karadzic's continuing 
control of the SDS and government officials in Pale. Plavsic then 
attempted to dismiss the Republika Srpska parliament and called for new 
parliamentary elections on 1 September. At present these will not take 
place because the Republika Srpska Constitutional Court has ordered a 
stay of execution of Plavsic's decision. Now the parliament is back in 
session.
    The power struggle is likely to run for some time because Plavsic 
is Republika Srpska's elected President and cannot be dismissed without 
a referendum. Plavsic also enjoys the support of the international 
community. Moreover, she appears to have support among ordinary people 
in dire economic conditions and also within the Bosnian Serb Army. 
However, the possibility of armed conflict between the entity army and 
the police under the control of the Interior Minister and loyal to 
Karadzic should not be ignored. Though Plavsic should never be 
considered a moderate or a democrat, her criticisms of the rest of the 
SDS leadership have been useful in undermining the strangle-hold they 
currently have on society. She is also more likely to co-operate with 
the international community in as much as she considers co-operation to 
be in Serb interests.
    Regardless of the outcome of the power struggle, in part 
precipitated by the international community's witholding of economic 
assistance to the entity, Republika Srpska will emerge changed and 
hopefully more willing to cooperate in the implementation of Dayton.
IV. The Federation
    Building the Federation remains a slow and painful process. More 
than three years after its creation in March 1994, it remains divided 
into Croat-and Bosniac-controlled territories and all aspects of life 
are dominated by the two nationalist parties, HDZ and SDA. Federation 
institutions, including a parliament, exist, but are often by-passed by 
the party bosses. Only a handful of cantonal and municipal assemblies 
function; in four municipalities interim assemblies have never 
convened. The HDZ is currently boycotting sessions of the Federation 
Parliament in protest at SDA refusal to endorse proposals for redrawing 
municipal boundaries along ethnic lines. HDZ proposals are essentially 
aimed at creating homogeneous Croat units throughout the Federation.
    In May, hard-line Croats formed the ``Croat Community of Herzeg-
Bosna.'' This is supposedly not a geographic entity but a self-
appointed body to look after Croat interests throughout Bosnia and 
Herzegovina. In reality, the institutions of a separate Croat entity 
continue to function, especially in Mostar. At the early July funeral 
of Mate Boban, the Bosnian Croat leader who carved out the Croat 
statelet through ethnic cleansing, Croatia's defense minister Gojko 
Susak pledged that he would remain faithful to the course which Boban 
had plotted.
    Despite the self-serving optimism of some officials from both 
communities, the Federation building process remains seriously flawed 
and agreements remain unfulfilled.
V. Return of Internally Displaced Persons and Refugees
    Global figures on returns remain disappointing. Of 2.3 million 
displaced persons at the end of hostilities, some 280,000 have returned 
to Bosnia, mostly to areas in which they belong to the ethnic majority. 
At the same time, however, more than 80,000 people, many of them Serbs 
from the Sarajevo suburbs, have been forced from their homes in the 
period since the Dayton Peace Agreement was signed. With some 60 per 
cent of the national housing stock destroyed or damaged during the war, 
physical difficulties alone are daunting. Moreover, they have been 
exacerbated, both by the deliberate and systematic destruction of 
houses in both Croat-controlled parts of the Federation and in 
Republika Srpska, and by discriminatory property legislation in both 
entities which affect majority as well as minority returnees alike.
    While the overall picture remains bleak, progress is being made 
within the Federation in central Bosnia. Several municipalities, in 
particular Busovaca, Gornji Vakuf and Konjic, have begun to grasp 
financial incentives aimed at reintegrating minority peoples into the 
community. In this way Croats are returning to Bosniac-controlled 
territory and Bosniacs to Croat-controlled areas. In addition, UNHCR 
reports that individuals in Republika Srpska have begun visiting their 
offices to ask about the possibilities of returning to their homes in 
the Federation. A year ago this did not happen. However, the number of 
these minority return initiatives remains small.
VI. Brcko
    The fate of this key strategic town on the Sava River which links 
eastern and western halves of Republika Srpska will be decided by 
international arbitration in March 1998. Whether it remains in 
Republika Srpska or becomes a district of Bosnia and Herzegovina under 
the administration of the common institutions, should depend on how the 
DPA is implemented there this year. An American Supervisor, Ambassador 
William Farrand, is overseeing implementation under the Office of the 
High Representative. Instead of fulfilling the terms of the DPA, 
however, both the Federation and Republika Srpska are being 
obstructionist. The Federation boycotted voter registration for the 
municipal elections during its first four weeks. This action was 
defended on the grounds that since Brcko's status was still 
undetermined, a single election should take place throughout the former 
municipality, not separate polls in the Federation and Republika 
Srpska. Moreover, the Federation rejects Republika Srpska identity 
cards in Brcko with the result that Bosniac displaced persons are not 
returning home. Republika Srpska is not prepared to issue its identity 
cards to Bosniac and Croat returnees in a manner acceptable to the 
Supervisor. Meanwhile, the Republika Srpska authorities abused voter 
registration in an attempt to pack Brcko with Serbs and thus engineer 
an absolute Serb majority. After the first four weeks of the 
registration, the scale of the fraud was so great that registration had 
to be cancelled and redone.
    The most that can realistically be achieved in Brcko this year is 
to begin the return process and thus destroy the ideology which 
maintains that Serbs, Bosniacs and Croats cannot live together. If, 
however, the current impasse is not broken, not even this modest goal 
will be achieved. If this is the outcome, the arbitration award should 
be given to Bosnia Herzegovina to reflect Republika Srpska's strategy 
of non-compliance.
VII. Elections
    National elections in September 1996 were deeply flawed and gave a 
fresh mandate to many leaders who were responsible for the war and who 
have no interest in implementing the peace agreement. After many 
postponements, municipal elections are scheduled for 13 and 14 
September. As a result of the impossibly high turn-out in the September 
1996 poll, a completely new registration has taken place. The scale and 
complexity of the task, however, has meant that even the most 
meticulous preparations would have failed to eradicate fraud. Moreover, 
the electorate of displaced persons currently living in Republika 
Srpska has once again, often under duress, opted to register to vote 
where they currently live, not where they were living in 1991. 
According to the DPA, this option was supposed to be the exception, not 
the rule. The extent of the fraud and its impact on the credibility of 
the elections cannot be determined until the OSCE releases detailed 
information on the registration figures at the end of July. 
Nonetheless, the municipal elections appear likely once again to 
confirm ethnic division.
VIII. Formation of Common Institutions and Reintegration
    The rationale for holding the 1996 elections was that common 
national institutions were required to help weld Bosnia and Herzegovina 
back together. Progress, however, has been extremely slow. The three-
man collective Presidency has, nevertheless, been meeting regularly 
since October 1996 and the Council of Ministers since January this 
year. Breakthroughs, such as formation of a central bank, generally 
require massive and sustained international pressure and obstructionism 
continues to yield dividends.
    Key legislation, known as the ``quick-start'' package and including 
laws covering formation of a central bank and customs policy, was 
passed after much delay by the Bosnian parliament on 20 June. In order 
to reach agreement and persuade Republika Srpska to sign, however, the 
laws were greatly watered down. For example, Bosnia and Herzegovina is 
to have one central bank, but it will be divided into main units. one 
will be in the Republika Srpska and ``one or two'' in the Federation 
and all will be able to hold reserve deposits from entity commercial 
banks. The central bank will issue a new currency, the ``Convertible 
Marka,'' once its design has been approved by the board of governors 
and the Presidency. In the interim, the entities will be able to issue 
temporary coupons and continue to use the foreign currencies--Yugoslav 
Dinars, Croatian Kuna and German Marks--currently in circulation. The 
entities are obliged to ``undertake all efforts'' to promote the use of 
the Convertible Marka, but no deadline or penalties have been set lest 
those efforts prove minimal. In effect, there may never be a common 
currency throughout Bosnia and Herzegovina.
    The most recent meeting of the Peace Implementation Council, which 
took place on 30 May in Sintra, Portugal, marked a change of approach 
by the Contact Group States. For the first time, deadlines were set for 
implementation of some civilian aspects of the peace treaty. The first 
deadline is for telephone connections. The rival ethnically-controlled 
networks must be linked up by 15 July. By 1 August the Bosnian 
government must have appointed new ambassadors and approved laws on 
citizenship and passports. And by 1 September a common flag must have 
been agreed. After 1 January 1998, only cars with new national Bosnian 
number plates will be allowed to cross international borders.
    The European Union is financing reconstruction of the telephone 
network in Republika Srpska, which was heavily damaged during NATO's 
1995 bombings, and has been building capacity between the Federation 
and Republika Srpska at three points within Republika Srpska. The 15 
July deadline for inter-entity telephone links, will not be met before 
the end of August. If the entities fail to hook up networks, the High 
Representative will recommend ``appropriate measures to ensure 
compliance.'' This could even entail SFOR making the connections.
    Progress towards agreement on the other areas for which deadlines 
have been set is slow. If agreement is not reached as stipulated, 
however, it is likely that states will refuse to recognise existing 
ambassadors and flags. This will have the greatest impact on Bosniacs 
since at present they dominate the diplomatic service and the state 
flag is effectively theirs. As a result, Serbs and Croats have no great 
interest in speeding negotiations.
    Otherwise, the nationalist media do all they can to keep tensions 
high. RTV Srpska continues to portray Republika Srpska as an 
independent state, is currently whipping up hysteria against the 
international community following NATO's arrest operations, and places 
news from the Federation in its ``foreign news'' section. The Croat 
station, HTV Mostar, tries to maintain conflict between Croats and 
Bosniacs. RTV BiH, the Sarajevo state broadcaster, though comparatively 
moderate, backs the Bosniac leadership to the hilt and has little 
positive to say about Bosnian Serbs and Croats.
IX. Reconstruction and a 1997 Donors' Conference
    Agreement over a central bank has paved the way for a still-to-be-
finalised stand-by agreement with the International Monetary Fund worth 
$100 million and a belated 1997 Donors' Conference. The conference, 
which was postponed in mid-June for the fourth time because, among 
other reasons, the Bosnian Parliament had failed to adopt the ``quick-
start'' package of laws, is expected to raise $1.4 billion for the on-
going reconstruction of Bosnia and Herzegovina, of which some 30 per 
cent is likely to go to Republika Srpska. The conference has now been 
set for 23-24 July.
    $1.8 billion was pledged at the 1996 Donors' Conference, of which 
some $1.5 billion was firmly committed. Most of this money went to 
Bosniac-controlled parts of the Federation. Only, about 5 per cent went 
to Croat-controlled territory and about 2 per cent to Republika Srpska. 
Boosted by this money, the Federation economy grew by more than 50 per 
cent in 1996, while unemployment has fallen to about 48 per cent. 
Recovery in Srpska has been much slower and unemployment is estimated 
at sixty percent.
    At the end of June Bosnia and Herzegovina reached agreement with 
the London Club of creditors effectively reducing the state's 
commercial debt inherited from the former Yugoslavia by 87.5 per cent, 
indeed a significant development. The country will have to service $404 
million of its $1.04 billion debt. of this, $105 million will be at low 
interest rates and $254 million will only become payable once the GDP 
per capita rises to $2,800.
    While the framework for Bosnia and Herzegovina's economic 
reconstruction is now in place, unless political issues are resolved 
first, international investment may only work against reintegration. 
Money is generally channelled via authorities who are almost invariably 
nationalist party stalwarts. In the process, therefore, the strength 
and influence of nationalist parties are enhanced.
X. Implementation of Military Provisions of the DPA
    In its initial months, the NATO-led Peace Implementation Force 
(IFOR) successfully oversaw the ceasefire, the transfer of authority in 
some areas, and the creation of the zone of separation. Since then, 
IFOR and its successor, SFOR, have concentrated on patrolling the 
Inter-Entity Boundary Line, while many other aspects of the Dayton 
Agreement, including military aspects, remain unfulfilled. De-mining 
has yet to begin in earnest, though the clearance of mines was supposed 
to occur within 30 days after IFOR deployment and the transfer of 
authority from the UN peace-keeping forces.
    Progress in implementing the Sub-Regional Arms Control Agreement 
will be difficult. Republika Srpska is worried by the $400 million, US-
sponsored ``Train and Equip'' programme and is therefore likely to balk 
at destroying large numbers of tanks and heavy weaponry. Two deadlines 
for weapons reductions were set to arrive at a two to one ratio between 
the Federation and Republika Srpska armed forces: (1) phase one to have 
been completed by 31 December 1996; and (2) phase two to be completed 
by 1 November 1997. The first deadline, which should have seen a 40 per 
cent reduction in artillery, combat aircraft, and attack helicopters, 
and 20 per cent reduction of tanks and armored combat vehicles, was not 
met. The second deadline looms over the horizon.
    Republika Srpska has also refused to agree to the formation of a 
Standing Commission on Military Matters, an advisory body which the 
Presidency could use to help control the armed forces of both entities.

    Senator Smith. As to that change, Mr. Ambassador, that you 
note, would our presence in Bosnia just be a very expensive 
cease-fire, presiding over an expensive cease-fire?
    Ambassador Abramowitz. I believe you put it very well. In 
fact, we used a similar phrase in our evaluation. That without 
more robust implementation and if troops depart it would be 
simply a cease-fire.
    Senator Smith. Thank you very much.
    Mr. Heffernan, welcome.

    STATEMENT OF MR. JOHN W. HEFFERNAN, EXECUTIVE DIRECTOR, 
              COALITION FOR INTERNATIONAL JUSTICE

    Mr. Heffernan. Thank you.
    Mr. Chairman, I thank you for calling this hearing today. I 
support everything that Ambassador Abramowitz has said. He has, 
as he said, worked on this issue for a long time.
    My message today is that Dayton will fail if in fact war 
criminals are not brought to justice, as many of the other 
participants have been saying as well. I spent two-and-a-half 
years as a refugee worker in the former Yugoslavia at the 
height of the war.
    I know firsthand that none of the admirable goals set out 
in Dayton, from the return of refugees to the functioning of 
joint institutions and economically sound reconstruction 
efforts, will be achieved unless the architects of genocide and 
their henchmen are captured and transferred to The Hague.
    If you were a refugee, would you return to your home 
knowing that a man who ran the concentration camp now works at 
the local police station just down the street?
    How free and fair can elections be if candidates running 
for office from exile are prevented, once elected, from taking 
office by ethnic cleansing that drove them from their 
districts?
    How much faith could you put in the future if the man who 
raped your wife and terrorized your neighbors thrives on the 
small fortune he made war profiteering?
    Dayton calls upon parties to cooperate with the 
International War Crimes Tribunal, yet 66 of the 78 publicly 
indicted persons are at large living freely and openly in Croat 
and Serb controlled areas of Yugoslavia. The former Yugoslavia, 
I should say.
    This list shows how easy it is to look at indicted war 
criminals. The Coalition for International Justice 6 or 7 
months ago, and is constantly updating it, compiled a list of 
over half of these people whose whereabouts are widely known. 
Some of these people have been indicted for, as you know, some 
of the most heinous crimes of this century.
    If Mr. Chairman permits, I would like to submit that list 
for the record.
    This past Tuesday the Coalition sent a letter to the 
President signed by over 80 religious, ethnic, women's, labor, 
human rights organizations representing millions of Americans. 
I would also like to submit this for the record.
    The letter was published in the New York Times and 
introduced by former Senator Dole and Senator Lieberman at a 
press conference. It says in part it is futile to repeatedly 
state that the countries of the former Yugoslavia should arrest 
their own war criminals. That just will not happen, and 
everybody knows it. They have had the opportunity to do so.
    The letter also states that thanks to the leadership of the 
U.S., the Dayton Accords empower NATO troops deployed in Bosnia 
to arrest indicted persons whenever and wherever they encounter 
them. Yet, despite a number of encounters, only one indicted 
war criminal has been arrested by NATO troops.
    The absurdity of this was highlighted by Senator Dole when 
on a recent visit to Bosnia a high level American authority 
told him that when an American official went to Pale to meet 
the representatives from the Republic of Srpska, he arrived at 
the meeting place only to find that Radovan Karadzic's car was 
parked outside of the building.
    We are encouraged by the recent arrests by the British 
forces in Prijedor and hope that this will be a sign of an 
aggressive SFOR policy in the future. Who arrests the indicted 
war criminals is not the issue. Whether it be a NATO force or 
whether it be an International Alternative Force, the issue is 
that it needs to be done.
    Mr. Chairman, arrests, as has been said before, of course 
do entail risks to American and other allied forces, but our 
forces will likely confront far greater risks if the war 
criminals undermining Dayton are not apprehended and 
hostilities erupt.
    Not to mention the billions of dollars--I think it was 
Ambassador Gelbard who previously said 7.7 billion--we have 
spent on this effort will have been wasted. Moving from an 
absence of war to a sustainable peace cannot be achieved as 
long as war criminals wield power over large swaths of Bosnia 
and Herzegovina.
    As was recently stated by General Shalikashvili, who 
initially opposed apprehending war criminals, and I quote, `` * 
* * It is terribly important that a way be found to apprehend 
those war criminals and bring them to justice.''
    Ratko Mladic and Radovan Karadzic and Dario Kordic must not 
be allowed, as Senator Dole so eloquently put the other day, `` 
* * * to exercise their noxious influence on the people who 
they sought to destroy.''
    Arresting war criminals is not a panacea for peace in 
Bosnia. A staggering amount needs to be done, as indicated 
earlier, and the war criminals are frustrating our efforts at 
every single turn.
    As long as war criminals are at large and justice is not 
done, the wounds of war cannot heal. Refugees will not return, 
there will be no reconciliation, there will be no recovery.
    Thank you very much.
    [The information referred to by Mr. Heffernan follows:]

                                                     July 15, 1997.
The Honorable William Jefferson Clinton,
President of the United States of America
The White House, 1600 Pennsylvania Avenue
Washington, D.C. 20500

Dear Mr. President:
    During the savage war against Bosnia--half a century after the 
civilized world declared that it would ``never again'' allow genocide 
to occur--over 200,000 men, women, and children were slaughtered in the 
heart of Europe in a genocidal rampage euphemistically referred to as 
``ethnic cleansing.'' Thousands of women were herded into camps where 
they were systematically raped as part of a larger campaign designed to 
humiliate, subjugate, and ultimately to destroy the Bosnian nation. 
Many more people were tortured or forced to flee for their lives.
    Some of the many men believed to have organized and commited these 
crimes have been indicted as war criminals by the International War 
Crimes Tribunal, which was established by the United Nations with the 
active support of the United States. Thanks also to leadership by the 
United States, the Dayton Accords empower NATO peacekeeping troops 
deployed in Bosnia (SFOR) to arrest indicted perpetrators of these 
crimes whenever and wherever they encounter them. Yet, despite numerous 
such encounters and our intimate knowledge of where most of these men 
live and work, only two attempted arrests have thus far been made by 
these troops.
    The undersigned organizations represent millions of Americans 
across the United States. We are deeply distressed that these indicted 
war criminals are living freely and with impunity, while American 
soldiers--the largest contingent of the NATO force--have apparently 
been denied the authority to make arrests. By pursuing such a policy, 
the United States may have been colluding in the protection of 
individuals charged with war crimes. We are encouraged by the recent 
arrest in Prijedor by British NATO troops and sincerely hope that this 
represents the beginning of a new, more aggressive policy by SFOR. We 
call upon you, Mr. President, to exert your leadership and take 
whatever diplomatic measures are necessary to ensure that the U.S.-led 
NATO forces in Bosnia meet their moral obligation to bring the rest of 
these men to justice without delay.
    We are hopeful that a commitment by the United States to fulfill 
this mandate will persuade our allies to complete the task of arresting 
all war-crimes indictees now in Bosnia, especially the architects of 
the genocide. If our allies are unwilling, however, the United States 
must take the lead, accept the risk of confrontation, and act an its 
own.
    It is futile to repeatedly state that the countries of the former 
Yugoslavia should arrest their own war criminals; it is clear they have 
no such intentions. And so long as war criminals are at large and 
justice is not done, the wounds of war cannot heal, refugees cannot 
return to their homes, and reconciliation, lasting peace, and a civil 
society cannot be achieved in Bosnia. A successful exit for U.S. troops 
will not be possible, and their many good works will have been wasted, 
if they leave behind a country in which persons indicted for war crimes 
continue to wield significant power and make a mockery of the rule of 
law.
    Mr. President, at the dedication of the Holocaust Museum you 
reiterated the pledge ``never again'' to permit genocide. If the War 
Crimes Tribunal and the quest for peace in Bosnia should fail because 
U.S.-led NATO troops are unwilling to apprehend indicted perpetrators 
of crimes against humanity, the civilized world will have lost the 
opportunity to restore some credence to this tarnished pledge. We 
appeal to you not to allow this to happen.
            Sincerely,
                                 John W. Heffernan,
                                        Executive Director,
                               Coalition for International Justice.

For:

Organizations
AFL-CIO
Action Council for Peace in the Balkans
African Methodist Episcopal Church, Commission on Missions
American-Arab Anti-Discrimination Committee
American Association of University Women
American Baptist Churches U.S.A., International Ministries, Africa, 
        Europe, and Middle East Desk
American Federation of State, County, Municipal Employees
American Indian Heritage Foundation
American Jewish Committee
American Jewish Congress
American Kurdish Information Network
American Muslim Council
American Nurses Association
Amnesty International, USA
Anti-Defamation League
Arab American Institute
B'nai B'rith
Business and Professional Women, USA
Central Conference of American Rabbis
Church World Service
Coalition of Labor Union Women
Columban Fathers' Justice and Peace Office, Washington D.C.
Communications Workers of America
Council on American-Islamic Relations
Episcopal Church, U.S.A.
Evangelical Lutheran Church in America, Lutheran Office for 
        Governmental Affairs
Evangelical Lutheran Church in America, Lutheran Office for World 
        Community
Evangelicals for Social Action
Feminist Majority
Friends of Bosnia
Hadassah
Hispanic National Bar Association
Human Rights Watch
International Brotherhood of Teamsters Human Rights Commission
International Campaign for Tibet
Institute for Public Affairs of the Orthodox Union
Jesuit Refugee Services
Jewish Council for Public Affairs
Jewish Women International
Lawyers' Committee for Human Rights
Maryknoll Fathers and Brothers, Justice and Peace Office
Maryknoll Sisters, Office of Social Concerns
Ms. Foundation for Women
Muslim Public Affairs Council
Muslim Women's League
National Asian Pacific American Legal Consortium
National Association of Arab Americans
National Association of Social Workers
National Coalition for Haitian Rights
National Coalition of 100 Black Women, Inc.
National Congress of American Indians
National Council of Churches
National Council of Churches, Justice for Women Working Group
National Council of Churches, Racial Justice Working Group
National Council of Jewish Women
National Council of Negro Women, Inc.
National Hispanic Leadership Institute
National Organization for Women
North American Council for Muslim Women
Older Women's League
Physicians for Human Rights
Project on African Americans in International Law
Psychologists for Social Responsibility
Rabbinical Assembly
Rabbinical Council of America
Refugees International
SAGE: Students Against Genocide
Simon Wiesenthal Center
SPEAR: Sigma Public Eilucation and Research Foundation of Sigma Gamma 
        Rho Sorority
Union of American Hebrew Congregations
Union of Orthodox Jewish Congregations of America
UNITE: Union of Needletrades, Industrial and Textile Employees
United Church of Christ and Disciples of Christ, United Church Board 
        for World Ministries
United Food and Commercial Workers International Union
United Methodist Church Women's Division General Board of Global 
        Ministries
U.S. Committee for Refugees
United Synagogue of Conservative Judaism
Vietnam Veterans of America Foundation
Women for Meaningful Summits
Women of Reform Judaism
Women's Commission for Refugee Women and Children
Women's League for Corservative Judaism
Y.W.C.A.
Individuals (organizational affiliation for identification only)
Morris Abram, former U.S. Ambassador at the United Nations
Morton I. Abramowitz, former U.S. Ambassador to Turkey
Bert B. Beach, Vice President, International Religious Liberty 
        Association and Gen'l Secretary, Council on Inter-Church 
        Relations, General Conference of Seventh Day Adventists
Michael Berenbaum, President and C.E.O., Survivors of the Shoah Visual 
        History Foundation
Edmond L. Browning, Presiding Bishop, Episcopal Church, U.S.A.
Hodding Carter, III, former Assistant Secretary of State
Charles F. Dambach, President, National Peace Corps Association
Patt Derian, former Assistant Secretary of State for Human Rights
Paula Dobriansky, former Director of European and Soviet Affairs, 
        National Security Council
Michael J. Dodd, Columban Fathers' Justice and Peace Office
Robert J. Dole, former U.S. Senate Majority Leader
Bianca Jagger, human rights activist
Max M. Kampelman, former U.S. Ambassador for Negotiations on Nuclear 
        and Space Arms
Reverend Ted Keating, Director for Justice and Peace, Catholic 
        Conference of Major Superiors of Men's Institutes
Paul Nitze, former Ambassador-at-Large and Special Advisor to the 
        President on Arms Control
Roberts Owen, Dayton Accords negotiator
David Saperstein, Director, Religious Action Center of Reform Judaism
George Shultz, former Secretary of State
John Silber, President, Boston University
Susan Sontag, author, director, literary theorist, and human rights 
        activist
Roberta Wohlstetter, historian and author, holder of the Presidential 
        Medal of Freedom
Miriam Young, Executive Director, Asia Pacific Center for Justice and 
        Peace

                               __________


                                 Whereabouts of Indicted War Criminals in Bosnia                                
                              (Prepared by The Coalition For International Justice)                             
----------------------------------------------------------------------------------------------------------------
                                    Location of                                                                 
              Name                     crimes           Ethnicity         Town/country          Whereabouts     
----------------------------------------------------------------------------------------------------------------
Nenad Banovic..................  Keraterm.........  Bosnian Serb.....  Prijedor,          Frequents ``Express'' 
                                                                        Republika Srpska.  restaurant in        
                                                                                           Prijedor.            
                                                                                          Lives at home in      
                                                                                           Prijedor. Twin       
                                                                                           brother to Predrag   
                                                                                           Banovic. One of the  
                                                                                           Banovic brothers was 
                                                                                           seen driving a motor 
                                                                                           scooter in Prijedor  
                                                                                           in late November 1996
                                                                                           (Christian Science   
                                                                                           Monitor, Nov. 28,    
                                                                                           1996).               
----------------------------------------------------------------------------------------------------------------
Predrag Banovic................  Keraterm.........  Bosnian Serb.....  31 Cirkin Polje    Frequents ``Express'' 
                                                                        Street,            restaurant in        
                                                                        Prijedor,          Prijedor.            
                                                                        Republika Srpska. Lives in Prijedor.    
                                                                                           Twin brother to Nenad
                                                                                           Banovic. One of the  
                                                                                           Banovic brothers was 
                                                                                           seen driving a motor 
                                                                                           scooter in Prijedor  
                                                                                           in late November 1996
                                                                                           (Christian Science   
                                                                                           Monitor, Nov. 28,    
                                                                                           1996).               
                                                                                          Australian reporter   
                                                                                           Gordon Weiss saw     
                                                                                           Predrag Banovic at   
                                                                                           Banovic's home, on 31
                                                                                           Cirkin Poije Street. 
                                                                                           Local police stated  
                                                                                           that the Banovics'   
                                                                                           (Predrag and Nendad) 
                                                                                           both work for reserve
                                                                                           police. They share a 
                                                                                           red motor bike and   
                                                                                           are often seen riding
                                                                                           through town. (``In  
                                                                                           the Land of the War  
                                                                                           Criminals'' By:      
                                                                                           Gordon Weiss, The    
                                                                                           Associated Press,    
                                                                                           April 17, 1997).     
----------------------------------------------------------------------------------------------------------------
Mario Cerkez...................  Lasva Valley.....  Bosnian Croat....  Vitez, Federation  Commanded an HVO      
                                                                        of B-H.            brigade in Vitez in  
                                                                                           1993 and is still    
                                                                                           there (Tanjug, Nov.  
                                                                                           13, 1995).           
----------------------------------------------------------------------------------------------------------------
Dragan Fustar..................  Foca.............  Bosnian Serb.....  Prijedor,          Residence address     
                                                                        Republika Srpska.  listed on the IFOR   
                                                                                           wanted poster was 41 
                                                                                           First of May Street  
                                                                                           in Prijedor. A       
                                                                                           journalist found     
                                                                                           Fustar's mother and  
                                                                                           wife both living     
                                                                                           there in late        
                                                                                           November 1996. The   
                                                                                           number sign has been 
                                                                                           pulled from the      
                                                                                           house. His mother and
                                                                                           wife say that they   
                                                                                           live at 37 First of  
                                                                                           May Street, even     
                                                                                           though the building  
                                                                                           is located between 39
                                                                                           and 43 First of May  
                                                                                           Street. He is now    
                                                                                           unemployed (Christian
                                                                                           Science Monitor, Nov.
                                                                                           28, 1996).           
                                                                                          Dragan Fustar visits  
                                                                                           his mother in        
                                                                                           Prvomajska street 41.
                                                                                           (The Associated      
                                                                                           Press, May 25, 1997).
----------------------------------------------------------------------------------------------------------------
Dragan Gagovic.................  Foca.............  Bosnian Serb.....  Foca, Republika    Chief of police in    
                                                                        Srpska.            Foca (Sunday Times of
                                                                                           London, July 28,     
                                                                                           1996).               
                                                                                          In April 1997 Dragan  
                                                                                           Gagovic was working  
                                                                                           as a police trainer  
                                                                                           in a police training 
                                                                                           school in Trjentiste.
                                                                                           The school is run by 
                                                                                           General Soric.       
                                                                                           Gagovic owns a bar in
                                                                                           Foca and can be seen 
                                                                                           in town driving a    
                                                                                           green rabbit. (Thomas
                                                                                           Keenan, Princeton    
                                                                                           University).         
----------------------------------------------------------------------------------------------------------------
Gojko Jankovic.................  Foca.............  Bosnian Serb.....  Foca, Republika    Seen by a journalist  
                                                                        Srpska.            at a Foca cafe while 
                                                                                           ``French soldiers    
                                                                                           from IFOR . . . leant
                                                                                           against a nearby wall
                                                                                           smoking cigarettes   
                                                                                           and paying no        
                                                                                           attention as         
                                                                                           Jankovic, accompanied
                                                                                           by bodyguards,       
                                                                                           casually ordered a   
                                                                                           drink.'' (Sunday     
                                                                                           Times of London, July
                                                                                           28, 1996).           
                                                                                          Tried to get on the   
                                                                                           ballot for municipal 
                                                                                           elections. OSCE      
                                                                                           spotted it and       
                                                                                           stopped him.         
----------------------------------------------------------------------------------------------------------------
Nikica Janjic..................  Omarska and        Bosnian Serb.....  Banja Luka,        According to friends  
                                  Keraterm.                             Republika Srpska.  and his father, he   
                                                                                           killed himself in    
                                                                                           September 1995       
                                                                                           (Christian Science   
                                                                                           Monitor, Nov. 28,    
                                                                                           1996).               
----------------------------------------------------------------------------------------------------------------
Goran Jelisic, Indicted for      Brcko............  Bosnian Serb.....  Bijeljina,         Interviewed in his    
 Genocide.                                                              Republika Srpska.  apartment in         
                                                                                           Bijeijina (De        
                                                                                           Volkskrant           
                                                                                           [Amsterdam], Feb. 29,
                                                                                           1996).               
                                                                                          Knows the telephone   
                                                                                           number of Ratko      
                                                                                           CESIC, also indicted 
                                                                                           for Brcko (De        
                                                                                           Volkskrant           
                                                                                           [Amsterdam], Feb. 29,
                                                                                           1996).               
----------------------------------------------------------------------------------------------------------------
Drago Josipovic................  Lasva Valley.....  Bosnian Croat....  Vitez, Federation  A chemical engineer at
                                                                        of B-H.            the local Vitezit    
                                                                                           explosives factory,  
                                                                                           he lives in his      
                                                                                           family home in the   
                                                                                           village of Santici,  
                                                                                           just east of Vitez   
                                                                                           (Associated Press,   
                                                                                           Nov. 9, 1996).       
                                                                                          Works as a chemical   
                                                                                           engineer in the      
                                                                                           Princip munitions    
                                                                                           factory. May also be 
                                                                                           found at the local   
                                                                                           Croatian Democratic  
                                                                                           Party headquarters,  
                                                                                           where his wife is    
                                                                                           president (Washington
                                                                                           Post, Nov. 27, page  
                                                                                           A21).                
----------------------------------------------------------------------------------------------------------------
Radovan Karadzic, Indicted for   Sarajevo and       Bosnian Serb.....  Pale, Republika    Pale house--large     
 Genocide.                        Srebrenica.                           Srpska; and        house on a           
                                                                        Banja Luka,        mountainside--pointed
                                                                        Republika Srpska.  out to Prof. Charles 
                                                                                           Ingrao on trip to    
                                                                                           Pale (New York Times,
                                                                                           Oct. 28, 1996).      
                                                                                          Has a friend, Slavko  
                                                                                           Rogulic, who runs a  
                                                                                           gas station and hotel
                                                                                           for him in Banja     
                                                                                           Luka. Also building a
                                                                                           house in Koljani     
                                                                                           village near Banja   
                                                                                           Luka.                
                                                                                          ``[M]akes little      
                                                                                           effort to conceal his
                                                                                           daily movements''    
                                                                                           (Associated Press,   
                                                                                           Nov. 9, 1996).       
                                                                                          Karadzic lives less   
                                                                                           than a kilometer from
                                                                                           SFOR troops. He is   
                                                                                           described as ``a     
                                                                                           creature of habit.'' 
                                                                                           UN sources say that  
                                                                                           he travels regularly 
                                                                                           between his home and 
                                                                                           his office (Industry 
                                                                                           of Vehicles in Famos)
                                                                                           in a limousine.      
                                                                                           (``NATO bid to       
                                                                                           capture Karadzic'' by
                                                                                           Chris Stephen in     
                                                                                           Agence France Presse,
                                                                                           May 20, 1997 and The 
                                                                                           Associated Press May 
                                                                                           25, 1997)            
                                                                                          The Office of Carl    
                                                                                           Bilt has ``hard      
                                                                                           evidence'' that      
                                                                                           Radovan Karadzic     
                                                                                           holds meetings with  
                                                                                           Momcilo, Krajisnik at
                                                                                           Karadzic's house in  
                                                                                           Pale. (From interview
                                                                                           with Colum Murphy,   
                                                                                           spokesperson for Carl
                                                                                           Bilt, BiHTV News     
                                                                                           Summary, 27 May, 1997
                                                                                           and BBC Summary of   
                                                                                           World Broadcasts,    
                                                                                           June 21, 1997).      
----------------------------------------------------------------------------------------------------------------
Marinko Katava.................  Lasva Valley.....  Bosnian Croat....  Vitez, Federation  Works as a labor      
                                                                        of B-H.            inspector for the    
                                                                                           Federation government
                                                                                           at desk in the town  
                                                                                           hall in Vitez, and   
                                                                                           lives in a pleasant  
                                                                                           downtown apartment   
                                                                                           (Associated Press,   
                                                                                           Nov. 9. 1996).       
                                                                                          Works in the town hall
                                                                                           in Vitez as an       
                                                                                           employment inspector.
                                                                                           He may be at the     
                                                                                           pharmacy run by his  
                                                                                           wife. The family     
                                                                                           telephone number is  
                                                                                           printed on a sign in 
                                                                                           the pharmacy window, 
                                                                                           and the Katavas live 
                                                                                           upstairs (Washington 
                                                                                           Post, Nov. 27, 1996, 
                                                                                           page A21).           
----------------------------------------------------------------------------------------------------------------
Dragan Kondic..................  Keraterm.........  Bosnian Serb.....  Prijedor,          Said to have          
                                                                        Republika Srpska.  connections witn     
                                                                                           special police in    
                                                                                           Ljubia.              
                                                                                          Hangs out almost every
                                                                                           night at ``The Pink''
                                                                                           bar in Prijedor.     
----------------------------------------------------------------------------------------------------------------
Dario Kordic...................  Lasva Valley.....  Bosnian Croat....  Zagreb, Croatia..  Numerous reports have 
                                                                                           him living in Zagreb.
                                                                                          On or about July 8,   
                                                                                           1996, was            
                                                                                           photographed in front
                                                                                           of an apartment in   
                                                                                           Zagreb's Tresnjevka  
                                                                                           district on the 4th  
                                                                                           floor with no name on
                                                                                           the door; block is   
                                                                                           owned by the defense 
                                                                                           ministry (Globus     
                                                                                           [Zagreb], as quoted  
                                                                                           in Reuters, July 10, 
                                                                                           1996).               
                                                                                          Croatian ambassador to
                                                                                           the United States    
                                                                                           says the apartment   
                                                                                           belongs to Kordic's  
                                                                                           parents, which means 
                                                                                           the Croatian         
                                                                                           government knows     
                                                                                           where Kordic has been
                                                                                           living (Washington   
                                                                                           Post, Nov. 11, 1996, 
                                                                                           page A28).           
----------------------------------------------------------------------------------------------------------------
Milojica Kos...................  Omarska..........  Bosnian Serb.....  Omarska,           His brother Zheljko   
                                                                        Republika Srpska.  Kos owns ``Europa''  
                                                                                           restaurant in        
                                                                                           Omarska, across the  
                                                                                           street from the      
                                                                                           Omarska camp         
                                                                                           buildings; Milojica  
                                                                                           Kos is frequently at 
                                                                                           the restaurant.      
                                                                                           Otherwise, he is     
                                                                                           keeping a low profile
                                                                                           in Omarska (Christian
                                                                                           Science Monitor, Nov.
                                                                                           28, 1996).           
----------------------------------------------------------------------------------------------------------------
Radomir Kovac..................  Foca.............  Bosnian Serb.....  Foca, Repubiika    A journalist said at  
                                                                        Srpska.            the IFOR press       
                                                                                           briefing on Nov. 19, 
                                                                                           1996, that Kovac was 
                                                                                           still working for the
                                                                                           Foca police. IPTF    
                                                                                           spokesman Aleksandar 
                                                                                           Ivanko replied, ``I  
                                                                                           heard these reports. 
                                                                                           We can't confirm     
                                                                                           them. We have to take
                                                                                           [Bosnian Serb        
                                                                                           Interior] Minister   
                                                                                           Kijac at his word,   
                                                                                           and he says nobody   
                                                                                           who has been indicted
                                                                                           is working as a      
                                                                                           policeman in his     
                                                                                           letter to Peter      
                                                                                           Fitzgerald, so for   
                                                                                           the time being we'll 
                                                                                           take him at his      
                                                                                           word.''              
----------------------------------------------------------------------------------------------------------------
Mirjan Kupreskic...............  Lasva Valley.....  Bosnian Croat....  Vitez, Federation  Can be found at the   
                                                                        of B-H.            grocery store he and 
                                                                                           his cousin Vlatko    
                                                                                           KUPRESKIC run; he    
                                                                                           lives in Pirici, just
                                                                                           east of Vitez        
                                                                                           (Associated Press,   
                                                                                           Nov. 9, 1996).       
                                                                                          Runs a grocery shop in
                                                                                           Vitez not far from   
                                                                                           Marinko KATAVA's     
                                                                                           wife's pharmacy      
                                                                                           (Washington Post,    
                                                                                           Nov. 27, page A21).  
----------------------------------------------------------------------------------------------------------------
Vlatko Kupreskic...............  Lasva Valley.....  Bosnian Croat....  Vitez, Federation  Can be found at the   
                                                                        of B-H.            grocery store he and 
                                                                                           his cousin Mirjan    
                                                                                           KUPRESKIC run; he    
                                                                                           lives in Pirici, just
                                                                                           east of Vitez        
                                                                                           (Associated Press,   
                                                                                           Nov. 9, 1996).       
----------------------------------------------------------------------------------------------------------------
Zoran Kupreskic................  Lasva Valley.....  Bosnian Croat....  Vitez, Federation  Can often be found at 
                                                                        of B-H.            the grocery store run
                                                                                           by him, his brother  
                                                                                           Mirjan KUPRESKIC and 
                                                                                           their cousin Vlatko  
                                                                                           KUPRESKIC (Associated
                                                                                           Press, Nov. 9, 1996).
                                                                                          Runs a business in    
                                                                                           Vitez, not his       
                                                                                           brother Mirjan       
                                                                                           KUPRESKIC's grocery  
                                                                                           shop. ``I have been  
                                                                                           advised not to talk  
                                                                                           to the press by the  
                                                                                           guy in charge,'' he  
                                                                                           said. ``But call my  
                                                                                           brother Mirjan. Maybe
                                                                                           he will want to talk 
                                                                                           to you,'' giving the 
                                                                                           telephone number and 
                                                                                           location of his      
                                                                                           brother's shop       
                                                                                           (Washington Post,    
                                                                                           Nov. 27, page A21).  
----------------------------------------------------------------------------------------------------------------
Miroslav Kvocka................  Omarska..........  Bosnian Serb.....  Prijedor,          Works at Prijedor     
                                                                        Republika Srpska.  police station       
                                                                                           (Reuters, Oct. 2,    
                                                                                           1996).               
                                                                                          Put on leave (ABC     
                                                                                           World News Tonight,  
                                                                                           Nov. 26, 1996).      
                                                                                          Put on 30 days leave. 
                                                                                          Was the Prijedor      
                                                                                           police duty officer  
                                                                                           as recently as Oct.  
                                                                                           23, 1996, but is on  
                                                                                           temporary leave      
                                                                                           (Christian Science   
                                                                                           Monitor, Nov. 28,    
                                                                                           1996).               
----------------------------------------------------------------------------------------------------------------
Milan Martic...................  Zagreb, rocket     CroSerb..........  Ulica Milosa       ``[H]is place of      
                                  attack.                               Oblica 88, Banja   residence has been   
                                                                        Luka, Republika    precisely located . .
                                                                        Srpska.            . (Telegraf          
                                                                                           [Belgrade], Feb. 28, 
                                                                                           1996).               
                                                                                          Believed living in    
                                                                                           Banja Luka (London   
                                                                                           Press Association,   
                                                                                           Mar. 8, 1996)        
                                                                                          Said to have regular  
                                                                                           meetings with        
                                                                                           Plavsic, et al.      
                                                                                          Attended a public     
                                                                                           event near Banja Luka
                                                                                           in July also attended
                                                                                           by IFOR personnel    
                                                                                           (Human Rights Watch  
                                                                                           press release, Nov.  
                                                                                           8, 1996).            
                                                                                          Seen in Banja Luka on 
                                                                                           Nov. 5, 1996. Lives  
                                                                                           less than 100 meters 
                                                                                           from IFOR civilian   
                                                                                           affairs center in    
                                                                                           Banja Luka (Human    
                                                                                           Rights Watch press   
                                                                                           release, Nov. 8,     
                                                                                           1996).               
                                                                                          Gave a videotape      
                                                                                           interview from his   
                                                                                           office in Bania Luka 
                                                                                           (ABC World News      
                                                                                           Tonight, Nov. 26,    
                                                                                           1996).               
                                                                                          Milan Martic lives at 
                                                                                           Ulica Milosa Oblica  
                                                                                           88. (Mario Dederichs 
                                                                                           in The Associated    
                                                                                           Press, May 25, 1997).
                                                                                          The London Times      
                                                                                           interviewed Milan    
                                                                                           Martic in June 1997. 
                                                                                           His house is within  
                                                                                           walking distance of  
                                                                                           the International    
                                                                                           Police Task Force    
                                                                                           building, the        
                                                                                           regional office of   
                                                                                           the High             
                                                                                           Representative, and  
                                                                                           other international  
                                                                                           agencies. There are  
                                                                                           5,000 British SFOR   
                                                                                           soldiers five miles  
                                                                                           away. (London Times, 
                                                                                           June 10, 1997).      
----------------------------------------------------------------------------------------------------------------
Zeljko Meaki [also spelled       Omarska..........  Bosnian Serb.....  Omarska,           Deputy commander of   
 ``Mejakic''], Indicted for                                             Republika Srpska.  Omarska police       
 Genocide.                                                                                 station (Boston      
                                                                                           Globe, Oct. 31, 1996,
                                                                                           page a6).            
                                                                                          Put on leave (ABC     
                                                                                           World News Tonight,  
                                                                                           Nov. 26, 1996).      
                                                                                          Put an 30 days leave. 
                                                                                          On duty as recently as
                                                                                           Oct. 20 (Christian   
                                                                                           Science Monitor, Nov.
                                                                                           28, 1996).           
----------------------------------------------------------------------------------------------------------------
Slobodan Milijkovic............  Bosanski Samac...  Bosnian Serb.....  Kragujevac,        Kragujevac is 60 miles
                                                                        Serbia.            southeast of Belgrade
                                                                                           (Time Magazine, May  
                                                                                           13, 1996).           
----------------------------------------------------------------------------------------------------------------
Ratko Mladic, Indicted for       Sarajevo and       Bosnian Serb.....  Han Pijesak,       Lives inside his      
 Genocide.                        Srebrenica.                           Republika Srpska.  headquarters         
                                                                       Belgrade, Serbia.   (numerous sources).  
                                                                       Jans Pijesak.....  Maintains an apartment
                                                                                           in Belgrade.         
                                                                                          General Mladic lives  
                                                                                           in the bunkered      
                                                                                           command center Crna  
                                                                                           Rijeka in the        
                                                                                           mountains of Jans    
                                                                                           Pijesak. (Mario      
                                                                                           Dederichs, The       
                                                                                           Associated Press, May
                                                                                           25, 1997).           
                                                                                          General Radko Mladic  
                                                                                           was to travel to     
                                                                                           Belgrade to attend   
                                                                                           his son's wedding    
                                                                                           sometime in June.    
                                                                                           Mladic was recently  
                                                                                           seen in Montenegro   
                                                                                           and Serbia on several
                                                                                           occasions. (Bosnian  
                                                                                           Serb media and Extra 
                                                                                           Magazine in Agence   
                                                                                           France Presse, June  
                                                                                           16, 1997).           
----------------------------------------------------------------------------------------------------------------
Milan Mrksic...................  Vukovar..........  Serb.............  Banja Luka,        General in the JNA at 
                                                                        Republika Srpska.  the time of Vukovar; 
                                                                                           then went to work for
                                                                                           the Krajina Serbs.   
                                                                                           Reported to have been
                                                                                           in Banja Luka (New   
                                                                                           York Times, Jan. 5,  
                                                                                           1996).               
                                                                                          Later, reported to    
                                                                                           have retired and now 
                                                                                           living a solitary    
                                                                                           life in Belgrade     
                                                                                           (Vreme, Apr. 6,      
                                                                                           1996).               
----------------------------------------------------------------------------------------------------------------
Dragan Nikolic.................  Susica...........  Bosnian Serb.....  Vlasenica,         Either in the         
                                                                        Republika Srpska.  Republika Srpska army
                                                                                           or the Republica     
                                                                                           Srpska civilian      
                                                                                           government (Reuters, 
                                                                                           Feb. 16, 1996).      
----------------------------------------------------------------------------------------------------------------
Miroslav Radic.................  Vukovar..........  Serb.............  In the Serbian     Operates a private    
                                                                        ``provinces''.     company ``in the     
                                                                                           provinces'' of Serbia
                                                                                           (Vreme, Apr. 6,      
                                                                                           1996).               
----------------------------------------------------------------------------------------------------------------
Mladen Radic...................  Omarska..........  Bosnian Serb.....  Prijedor,          Works at Prijedor     
                                                                        Republika Srpska.  police station       
                                                                                           (Reuters, Oct. 29,   
                                                                                           1996).               
                                                                                          Put on leave (ABC     
                                                                                           World News Tonight,  
                                                                                           Nov. 26, 1996).      
                                                                                          Put on 30 days leave. 
----------------------------------------------------------------------------------------------------------------
Ivica Rajic....................  Stupni Do........  Bosnian Croat....  Split, Croatia...  Lived in a Croatian-  
                                                                                           government owned     
                                                                                           hotel, believed to be
                                                                                           the Zagreb Hotel, but
                                                                                           has since reportedly 
                                                                                           left Split (Globus   
                                                                                           [Zagreb]; reported by
                                                                                           Reuters, Oct. 23 and 
                                                                                           24, 1996).           
----------------------------------------------------------------------------------------------------------------
Ivan Santic....................  Lasva Valley.....  Bosnian Croat....  Unknown..........  Santic was described  
                                                                                           as an engineer, the  
                                                                                           director of the      
                                                                                           Sintevit plant in    
                                                                                           Vitez. and, at the   
                                                                                           time the crimes      
                                                                                           occurred, the mayor  
                                                                                           of Vitez (Tanjug,    
                                                                                           Nov. 13, 1995).      
                                                                                          Interviewed by Inter  
                                                                                           Press Service (Inter 
                                                                                           Press Service, Dec.  
                                                                                           14, 1995).           
                                                                                          In 1994-95 (at least),
                                                                                           Santic was Deputy    
                                                                                           Minister of Industry 
                                                                                           and Energy in the    
                                                                                           Federation (Vjesnik  
                                                                                           [Zagreb], June 20,   
                                                                                           1994, and Vecernji   
                                                                                           List [Zagreb], Nov.  
                                                                                           20, 1995). Federation
                                                                                           officials should know
                                                                                           his address.         
----------------------------------------------------------------------------------------------------------------
Dusko Sikirica, Indicted for     Keraterm.........  Bosnian Serb.....  Unknown..........  Tried to get on the   
 Genocide.                                                                                 ballot for municipal 
                                                                                           elections. OSCE      
                                                                                           spotted it and       
                                                                                           stopped him. OSCE    
                                                                                           should know his      
                                                                                           address.             
----------------------------------------------------------------------------------------------------------------
Blagoje Simic..................  Bosanski Samac...  Bosnian Serb.....  Bosanski Samac,    Highest-ranking public
                                                                        Republika Srpska.  official in Bosanski 
                                                                                           Samac, with an office
                                                                                           in the town hall     
                                                                                           (Boston Globe, Nov.  
                                                                                           1, 1996, page a1).   
----------------------------------------------------------------------------------------------------------------
Pero Skopljak..................  Lasva Valley.....  Bosnian Croat....  Vitez, Federation  An official in the    
                                                                        of B-H.            HZHB Presidency      
                                                                                           (Tanjug, Nov. 13,    
                                                                                           1995).               
                                                                                          ``Still lives in      
                                                                                           Vitez, where he runs 
                                                                                           a print shop'' (Inter
                                                                                           Press Service, Dec.  
                                                                                           14, 1995).           
                                                                                          Now runs a local      
                                                                                           printing company from
                                                                                           the ground floor of  
                                                                                           his spacious home in 
                                                                                           Vitez (Associated    
                                                                                           Press, Nov. 9, 1996).
                                                                                          Still runs the        
                                                                                           printing shop, though
                                                                                           his wife says he's   
                                                                                           rarely there         
                                                                                           (Washington Post,    
                                                                                           Nov. 27, page A21).  
----------------------------------------------------------------------------------------------------------------
Veselin Sljivancanin...........  Vukovar..........  Serb.............  Belgrade, Serbia.  Reportedly had failing
                                                                                           out with his         
                                                                                           superior, Gen. Milan 
                                                                                           MRKSIC, also indicted
                                                                                           for Vukovar (New York
                                                                                           Times, Jan. 5, 1996).
                                                                                          Promoted to full      
                                                                                           colonel and          
                                                                                           transferred to       
                                                                                           Belgrade (Agence     
                                                                                           France Presse, Feb.  
                                                                                           16, 1996).           
                                                                                          Now head of the Center
                                                                                           of Advanced Military 
                                                                                           Schools in Belgrade  
                                                                                           (Svijet [Sarajevo],  
                                                                                           Apr. 25, 1996). Also 
                                                                                           referred to as an    
                                                                                           instructor at the    
                                                                                           Center of Advanced   
                                                                                           Military Schools in  
                                                                                           Belgrade (Vreme, Apr.
                                                                                           6, 1996).            
----------------------------------------------------------------------------------------------------------------
Radovan Stankovic..............  Foca.............  Bosnian Serb.....  Foca, Republika    Working in the        
                                                                        Srpska.            Republika Srpska     
                                                                                           police in Foca as of 
                                                                                           August, according to 
                                                                                           IPTF spokesman       
                                                                                           Aleksandar Ivanko. In
                                                                                           August, Stankovic    
                                                                                           walked into IPTF     
                                                                                           police station near  
                                                                                           Sarajevo, but IPTF   
                                                                                           did not recognize his
                                                                                           name. Local police   
                                                                                           stopped him, asked to
                                                                                           see his driver's     
                                                                                           licence, recognized  
                                                                                           his name, ordered him
                                                                                           to come to a police  
                                                                                           station, whereupon he
                                                                                           fled--later to file a
                                                                                           complaint with the   
                                                                                           IPTF alleging that   
                                                                                           the Bosnian police   
                                                                                           fired shots at his   
                                                                                           car (Reuters, Nov. 8,
                                                                                           1996).               
                                                                                          In August, Stankovic  
                                                                                           filed a complaint    
                                                                                           against the Bosnian  
                                                                                           police at an IPTF    
                                                                                           office. ``After being
                                                                                           embarrassed by the   
                                                                                           fact that journalists
                                                                                           discovered five      
                                                                                           others indicted on   
                                                                                           war-crime charges in 
                                                                                           the Serbian police   
                                                                                           force, U.N. officials
                                                                                           reacted by forbidding
                                                                                           their monitors to    
                                                                                           discuss the Stankovic
                                                                                           case with reporters''
                                                                                           (New York Times, Nov.
                                                                                           9, 1996).            
----------------------------------------------------------------------------------------------------------------
Nedjeljko Timarac..............  Keraterm.........  Bosnian Serb.....  Prijedor,          Works at Prijedor     
                                                                        Republika Srpska.  police station       
                                                                                           (Reuters, Oct. 29,   
                                                                                           1996).               
                                                                                          Put on leave (ABC     
                                                                                           World News Tonight,  
                                                                                           Nov. 26, 1996).      
                                                                                          Put on 30 days leave. 
----------------------------------------------------------------------------------------------------------------
Stevan Todorovic...............  Bosanski Samac...  Bosnian Serb.....  Bosanski Samac,    Deputy of the local   
                                                                        Republika Srpska.  office of Republika  
                                                                                           Srpska state security
                                                                                           in Bosanski Samac;   
                                                                                           works the night shift
                                                                                           (7 p.m.-7 a.m.)      
                                                                                           (Boston Globe, Nov.  
                                                                                           1, 1996, page a1).   
                                                                                          Lives in the village  
                                                                                           of Donja Slatina, a 3
                                                                                           minute, 30-second    
                                                                                           drive from American- 
                                                                                           staffed NATO base of 
                                                                                           Camp Colt, with 1,000
                                                                                           soldiers. His        
                                                                                           commuter route is    
                                                                                           routinely traveled by
                                                                                           NATO patrols (Boston 
                                                                                           Globe, Nov. 1, 1996, 
                                                                                           page a1).            
----------------------------------------------------------------------------------------------------------------
Simo Zaric.....................  Bosanski Samac...  Bosnian Serb.....  Unknown..........  Simo Zaric can be     
                                                                                           found at the Bosanski
                                                                                           Samac, ``A US soldier
                                                                                           checked his identity 
                                                                                           card carefully, waved
                                                                                           to him and then      
                                                                                           saluted''. (Mario    
                                                                                           Dederichs, May 25,   
                                                                                           1997).               
----------------------------------------------------------------------------------------------------------------
Dragan Zelenovic...............  Foca.............  Bosnian Serb.....  Foca, Republika    A journalist said at  
                                                                        Srpska.            the IFOR press       
                                                                                           briefing on Nov. 19, 
                                                                                           1996, that Zelenovic 
                                                                                           was still working for
                                                                                           the Foca police. IPTF
                                                                                           spokesman Aleksandar 
                                                                                           Ivanko replied, ``I  
                                                                                           heard these reports. 
                                                                                           We can't confirm     
                                                                                           them. We have to take
                                                                                           [Bosnian Serb        
                                                                                           Interior] Minister   
                                                                                           Kijac at his word,   
                                                                                           and he says nobody   
                                                                                           who has been indicted
                                                                                           is working as a      
                                                                                           policeman in his     
                                                                                           letter to Peter      
                                                                                           Fitzgerald, so for   
                                                                                           the time being we'll 
                                                                                           take him at his      
                                                                                           word.''              
----------------------------------------------------------------------------------------------------------------
Zoran Zigic....................  Omarska and        Bosnian Serb.....  Banja Luka,        Believed to be in jail
                                  Keraterm.                             Republika Srpska.  in Banja Luka.       
                                                                                          Reported to be in a   
                                                                                           Bosnian Serb prison  
                                                                                           for an unrelated     
                                                                                           murder (Christian    
                                                                                           Science Monitor, Nov.
                                                                                           28, 1996).           
----------------------------------------------------------------------------------------------------------------


    Senator Smith. Thank you very much for that very eloquent 
testimony.
    Mr. Johnson.

    STATEMENT OF MR. HAROLD J. JOHNSON, ASSOCIATE DIRECTOR, 
INTERNATIONAL RELATIONS AND TRADE DIVISION, GENERAL ACCOUNTING 
                             OFFICE

    Mr. Johnson. Thank you very much, Mr. Chairman. I am very 
pleased to be here today.
    As you know, we recently issued a fairly lengthy report. We 
also have a very lengthy statement for the record that I am 
sure will be entered. I will try to summarize some points as 
quickly as possible.
    Senator Smith. We will be very happy to receive any 
materials that you would like, that any of you would like, to 
include in our record today.
    Mr. Johnson. Thank you very much.
    Our report and my statement today is based on three visits 
to Bosnia, as well as work that we have performed here in the 
States, at NATO and other locations in Europe.
    I would like to say that our job is not one of advocacy, it 
is one of trying to report objectively what we see. Even though 
some of what I am going to say today may sound like advocacy, 
it is simply reporting back to you what we learned during our 
visits.
    Obviously there have been some successes in the operation 
in Bosnia. The military operation, I think no one would deny, 
has been successful. War has ended. There are no hostilities, 
and that has allowed time for the civilian aspects of the 
Dayton Peace Accords to at least begin.
    Despite this progress, despite these successes, a unified 
multiethnic democratic government and one that respects the 
rule of law has not taken root. This is due principally to the 
failure of Bosnias political leaders to fulfill their 
obligations under Dayton and to promote political and social 
reconciliation.
    Many Bosnian Serbs and Croat leaders still embrace their 
wartime goals. The Bosnian Muslims would like to have a unified 
and multiethnic state but, as some analysts have pointed out, 
with themselves in control. So there are problems on all sides.
    One of the key provisions of the Dayton agreement concerns 
the right of refugees and displaced persons to return to their 
homes.
    In the majority of these cases, that would mean returning 
to areas that were ethnically cleansed. Because of the 
resistance of political leaders of all three ethnic groups, 
very few refugees or displaced persons have crossed ethnic 
lines to return to their pre-war homes. The number, as we saw, 
was about 9,000, a very small number.
    Most of the returns that have taken place, and there have 
been about 280,000 people returned, have been to areas where 
they are in the majority. Bosnia's political leaders from all 
sides have often blocked other efforts to link the ethnic 
groups, both politically and economically. There are numerous 
examples of this, linkages of rail, air, telecommunications, 
and other areas.
    As a result of strong international pressure, some progress 
is being made on the initiation of institutions. They are 
beginning to work, but very slowly.
    During our June visit, nearly every official at all levels 
that we spoke with expressed the importance of arresting or 
somehow taking Radovan Karadzic off the scene. Other indicted 
war criminals were not mentioned prominently, although it was 
recognized that it also is important that they be arrested.
    Mr. Karadzic was mentioned very prominently because it is 
believed that he essentially controls what happens in the 
Republic of Srpska. Even though some of the more moderate, and 
I use that word advisedly, leaders have been willing to 
cooperate, Mr. Karadzic blocks progress at almost every turn. 
The view was, by almost everybody that we spoke with, that if 
he remains in place, Dayton has very little chance of 
succeeding.
    There are a number of other issues that came up during our 
most recent visit. One of these has to do with the concern 
about the upcoming election, the municipal elections, 
specifically the contentious issue of installing newly elected 
officials in locations where they may be in the minority.
    And the way the election is being structured, and as it 
should be structured, there is a possibility that Serbs or 
Muslims or Croats could be elected to municipal posts in areas 
where they are no longer in the majority. There is a great deal 
of concern about these officials' installation and the security 
related to that issue.
    Another issue that was raised prominently in the 
discussions that we had has to do with the decision on Brcko. I 
think it is recognized by most observers and international 
officials that what happens in Brcko will indeed be the key to 
what happens in Bosnia.
    If they are unable to resolve that situation in a manner 
that somehow satisfies both the Bosnian Serbs and Muslims, both 
sides have indicated that they would expect to go back to war.
    We visited the operations center at the office of the 
deputy high representative in Brcko. We could see that they are 
working very hard, and they have a plan to begin implementing 
some of the provisions of the Dayton agreement, but they are 
going very slowly. We do not necessarily fault them at that; it 
is a very difficult job.
    From January of this year through June, 159 Muslim families 
were brought back into their homes within the Bosnia Serb side 
of the zone separation. When you consider that there are as 
many as 30,000 Bosniaks and Bosnian Croats who were driven from 
their homes in the area, the task is very large.
    Finally, the topic of much discussion during our trip was 
the need for continued international military presence in 
Bosnia after SFOR's mission ends in June.
    Again, the consensus was that the desired end-state, which 
includes (1) political leaders demonstrating a commitment to 
continue negotiations, (2) the establishment of civil 
structures that would be sufficiently mature to assume the 
responsibility for ensuring compliance with Dayton, (3) 
political leaders of the three groups would adhere to a 
sustained cease-fire, and (4) continued, ongoing nation-
building activities, has very little chance of being met by 
June 30.
    Almost to a person, the individuals that we spoke with 
indicated that international forces would be required to 
maintain the peace. And, in order for that international force 
to have any credibility, the United States would have to have 
some involvement and be on the ground and not over the horizon.
    We heard that time and again, that having U.S. troops over 
the horizon in Italy or in Hungary simply would not be 
sufficient to have the credibility if the situation in Bosnia 
continues as it is now, and as it is foreseen to be in June 
1988.
    Senator Biden. Excuse me, sir. Whom did you hear that from?
    Mr. Johnson. Numerous people that we talked to, including 
some NATO officers----
    Senator Biden. And that assumed no NATO forces in Bosnia?
    Mr. Johnson. No, there would be NATO forces in Bosnia. But, 
there is a belief that NATO forces in Bosnia without a U.S. 
presence on the ground in some form--we did not hear a 
prescription as to what form that should take, but on the 
ground in Bosnia in some form, credibility of the forces simply 
would not be there. They have gone through that experience with 
UNPROFOR----
    Senator Biden. Did you hear that from NATO forces or did 
you hear that from Bosnians----
    Mr. Johnson. Mostly from international officials, OSCE 
officials, the European Monitoring Mission and others. There 
was a concern raised about the credibility issue among NATO 
forces that we spoke with, but it came more strongly from other 
international officials.
    Finally, I would like to just briefly mention we have 
continued to follow the cost of this operation. I know in your 
statement you mentioned $7.7 billion. As a result of planning 
now for increasing slightly the force levels during the 
election, the price has gone up to $7.8 billion.
    If the U.S. military continues beyond June, obviously the 
price would go even higher. This is not an inexpensive 
operation.
    [The prepared statement of Mr. Johnson follows:]

                Prepared Statement of Harold J. Johnson

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to provide our evaluation of 
international efforts to promote an enduring peace in Bosnia and 
Herzegovina through the implementation of the 1995 Dayton Agreement. My 
statement is based on (1) our May 1997 report on the Bosnia peace 
operation, \1\ which provided the results of two visits to Bosnia in 
July and December 1996 and (2) information on evolving issues and 
progress we obtained during a visit to Bosnia in June 1997.
---------------------------------------------------------------------------
    \1\ Bosnia Peace Operation: Progress Toward Achieving the Dayton 
Agreement's Goals (GAO/NSIAD-97-132, May 5, 1997).
---------------------------------------------------------------------------
Summary
    The internationally-supported peace operation in Bosnia, part of a 
longer-term peace process, has helped that country take important first 
steps toward achieving the Dayton Agreement's goals. The North Atlantic 
Treaty Organization (NATO)-led forces have sustained an environment 
without active military hostilities. This has provided time for the 
peace process to move forward and has allowed the implementation of the 
agreement's civil aspects to begin. Progress has been made in 
establishing some political and economic institutions, and economic 
recovery has started in the Federation. Nevertheless, the transition to 
a unified, democratic government that respects the rule of law has not 
occurred, due principally to the failure of Bosnia's political leaders 
to fulfill their obligations under the Dayton Agreement and to promote 
political and social reconciliation. Despite the Dayton Agreement, many 
Bosnian Serb and Croat political leaders still embrace their wartime 
aims of controlling their own ethnically pure states separate from 
Bosnia. Bosnian Muslims, known as Bosniaks, continue to support a 
unified, multiethnic state, but, according to some analysts, with the 
Bosniaks in control.
    Very few refugees and displaced persons have crossed ethnic lines 
to return to their prewar homes, primarily due to resistance from 
political leaders of all three major ethnic groups. Further, according 
to human rights reports, Bosnians of all three ethnic groups could not 
freely cross ethnic lines at will or remain behind to visit, work, or 
live without facing harassment, intimidation, or arrest by police of 
other ethnic groups. Essentially, true freedom of movement across 
ethnic boundaries does not yet exist. Similarly, Bosnia's political 
leaders from all sides have often blocked efforts to link their ethnic 
groups politically or economically. Virtually all of the limited 
progress on the civil aspects has resulted from strong international 
pressure on these often resistant political leaders. As one 
international official noted, the Bosnia peace process remains driven 
from the outside rather than from within.
    During our June 1997 visit, nearly every international and U.S. 
official with whom we spoke, including senior NATO officers, were 
adamant that Radovan Karadzic, a Bosnian Serb who was indicted by the 
war crimes tribunal, must be arrested or otherwise removed from Bosnia. 
Most were unequivocal on this matter, and stated that he retains 
political power and influence over political figures in Republika 
Srpska, the Bosnian Serb entity. So far, according to these officials, 
he has seen fit to block every significant move toward reconciliation.
    Other key issues identified as being critically important to the 
Dayton Agreement's success include the municipal elections scheduled 
for September 13 and 14, 1997, specifically the potentially contentious 
installation of some newly elected municipal governments; the outcome 
of the arbitration decision concerning which ethnic group will control 
the strategically important city of Brcko in Republika Srpska; and the 
issue of whether an international military force, including the U.S. 
military, should remain in Bosnia after the current NATO-led mission 
ends in June 1998.
    I should note that our field work in Bosnia was completed before 
the recent political crisis in Republika Srpska, and my statement does 
not address this issue. However, even if President Plavsic wins the 
political struggle with more hardline Bosnian Serb political leaders, 
we believe that full implementation of the Dayton Agreement--in other 
words, full political and social reconciliation in Bosnia--will remain 
a long and difficult process.
    The executive branch initially estimated that U.S. military and 
civilian participation in Bosnia would cost about $3.2 billion through 
fiscal year 1997. The total estimated cost for U.S. participation in 
the operation has since risen to $7.8 billion. The increase is 
primarily due to the December 1996 decision to extend the presence of 
U.S. forces in and around Bosnia until June 1998.
Progress Toward Achieving The Dayton Agreement's Goals
    I will briefly review, and in some cases update, our report's 
findings on progress made in achieving the Bosnia peace operation's 
four key objectives. These objectives were to (1) provide a secure 
environment for the people of Bosnia; (2) create a unified, democratic 
Bosnia that respects the rule of law and internationally recognized 
human rights, including cooperating with the war crimes tribunal in 
arresting and bringing those charged with war crimes to trial; (3) 
ensure the rights of refugees and displaced persons to return to their 
prewar homes; and (4) rebuild the economy.
Progress in Providing a Secure Environment
    The Bosnian people are more secure today than before the Dayton 
Agreement was signed. Bosnia's Serb, Croat, and Bosniak armies have 
observed the cease-fire, allowed NATO's Implementation Force and later 
the Stabilization Force, known as SFOR, to monitor their weapons sites 
and troop movements, and have reduced their force levels by a combined 
total of 300,000. The U.S.-led ``train and equip'' program intended to 
help stabilize the military balance in the region and integrate the 
Bosniak and Bosnian Croat armies into a unified Federation army is 
progressing, albeit slower than anticipated.
    Nonetheless, Bosnian Serb political leaders have not fully lived up 
to arms reduction agreements. According to a State Department official, 
the United States could increase assistance under the Federation train 
and equip program to provide a military balance if the Bosnian Serbs do 
not comply with the arms control agreements. Bosnian Croat and Bosniak 
political leaders have made some progress in reforming their civilian 
police so that they provide security for Bosnians of all ethnic groups 
and do not commit human rights abuses; however, Bosnian Serb political 
leaders have refused to cooperate with the International Police Task 
Force (IPTF) in reforming their police force in accordance with 
democratic policing standards. Moreover, many international observers, 
including some in the State Department, believe that keeping an 
international military force in place is still the only deterrent to 
major hostilities in Bosnia.
Progress in Developing a Unified, Democratic Bosnia
    A unified, democratic state that respects the rule of law and 
adheres to international standards of human rights has yet to be 
achieved. Elections for institutions of Bosnia's national and two 
entity governments (Republika Srpska and the Federation) were held in 
September 1996, and many national joint institutions intended to unify 
Bosnia's ethnic groups have met at least once. However, most of these 
institutions are not yet functioning; Bosnia's three separate, 
ethnically-based armies continue to be controlled by their wartime 
political leaders; and many Bosnian Serbs and Croats and their 
political leaders retain their wartime goal of establishing ethnically 
pure states separate from Bosnia. Moreover, the human rights situation 
worsened in the months after the election, particularly in Bosnian 
Serb-controlled areas. And ethnic intolerance remains strong throughout 
Bosnia, in large part because Bosnia's political leaders control the 
media and use it to discourage reconciliation among the ethnic groups.
    Additionally, as of July 10, 1997, 66 of the 74 people \2\ publicly 
indicted by the war crimes tribunal remained at large, some openly 
serving in official positions and/or retaining their political power. 
While the Bosniaks had surrendered all indicted war criminals in their 
area of control to the war crimes tribunal, Bosnian Serbs and Croats 
had not surrendered to the tribunal any indicted war criminals in their 
areas. U.S. and other officials view progress on this issue as central 
to the achievement of the Dayton Agreement's objectives.
---------------------------------------------------------------------------
    \2\ These figures do not include one person who was indicted by and 
surrendered to the war crimes tribunal but who was released by the 
tribunal for humanitarian reasons and later died. Also, other people 
not included in these figures have been indicted by the war crimes 
tribunal under sealed indictments.
---------------------------------------------------------------------------
    On July 10, 1997, NATO-led troops in Bosnia for the first time 
attempted to arrest people indicted for war crimes, specifically two 
Bosnian Serb suspects who had been charged under a sealed indictment 
for complicity with commitment of genocide. British SFOR soldiers 
arrested one suspect and, in self-defense, shot and killed the other 
after he fired at them. U.S. officials have stated that this action 
does not represent a change in policy regarding SFOR's mandate to 
apprehend indicted war criminals. The policy remains that SFOR troops 
will arrest indicted war criminals when they come upon them in the 
normal course of their duties if the tactical situation allows.
Progress in Returning Refugees and Displaced Persons
    Despite guarantees in the Dayton Agreement and extensive 
international efforts to resolve the issue, the return of refugees and 
displaced persons to their homes has barely begun in Bosnia. The 
returns that did take place in 1996 and 1997 were mainly people going 
back to areas controlled by their own ethnic group because returns 
across ethnic lines proved nearly impossible. Of the estimated 2 
million people who were forced or fled from their homes during the war, 
in 1996 about 252,000 returned home (88,000 refugees and 164,000 
displaced persons), while at the same time over 80,000 others fled or 
were driven from their homes. Almost all of these people returned to 
areas in which they would be in the majority ethnic group. For 1997, 
the United Nations High Commissioner for Refugees (UNHCR) decided to 
give priority to majority returns and projected that 200,000 refugees 
would return to their homes, all to majority areas. \3\ As of March 
1997, the pace of refugee returns exceeded UNHCR's target as about 
17,000 refugees returned to Bosnia. In mid-June 1997, however, UNHCR 
officials in Bosnia told us that this pace had recently fallen off, \4\ 
and, if the current trend continued, the number of refugee returns for 
1997 would be lower than projected.
---------------------------------------------------------------------------
    \3\ According to a UNHCR official, UNHCR has no estimates for 
returns of displaced persons in 1997; however, it has an informal 
target of 20,000-30,000 returns of displaced persons for the year.
    \4\ According to a UNHCR official, 23,000 refugees had to returned 
to Bosnia from January through May 1997. This is much lower than 
UNHCR's target of about 57,000 refugee returns for that period.
---------------------------------------------------------------------------
    A number of factors have combined to hinder returns, such as fear, 
stemming from lack of personal security; violence triggered by 
attempted cross-ethnic returns; poor economic prospects; and lack of 
suitable housing. Further, political leaders of all ethnic groups have 
used nonviolent means to resist returns, including the retention of 
existing, discriminatory property laws and continuing other policies 
that place insurmountable barriers to returns. For example, according 
to UNHCR officials, Bosnian Croat political leaders, as directed by 
Croatia, have moved 5,000 to 6,000 displaced persons--including Bosnian 
Croat army members and their families--into the formerly Serb-populated 
city of Drvar, a policy designed to prevent Serbs from returning and to 
cement the ethnic separation of Bosnia. This policy has been 
implemented by all three ethnic groups during and after the war.
    Recent efforts to address the return problem involved many aspects 
of the Bosnia peace operation. For example, in spring 1997 UNHCR, with 
support from the U.S. government, announced the ``Open Cities'' project 
that is designed to provide economic incentives to those areas that 
welcome and actively integrate refugees and displaced persons into 
local communities. In April, the Federation refugee minister provided 
UNHCR with a list of 25 cities and towns for participation in the 
project. As of mid-June 1997, UNHCR was evaluating the level of 
commitment of these and other communities that had indicated an 
interest in the project. According to a U.N. official, in early June 
the Republika Srpska Minister of Refugees was going to submit a list of 
nine cities in Republika Srpska that wanted to take part in the 
project. At the last minute, however, the minister was directed not to 
participate by Radovan Karadzic, who effectively retains control of 
Republika Srpska.
    According to a State Department official, the U.S. embassy and 
UNHCR in early July 1997 officially recognized the first three 
communities to receive assistance under the ``Open Cities'' project. 
The U.S. government is also funding minority return programs in two 
other communities. Of these five communities, three are in Bosniak-
controlled areas, one is in a Bosnian Croat-controlled area, and one is 
in Republika Srpska.
Progress in Rebuilding the Economy
    Economic conditions have improved somewhat since the end of the 
war, particularly in the Federation. Economic reconstruction has begun, 
and about $1.1 billion in international assistance was disbursed in 
1996 as part of the 3- to 4-year reconstruction program. \5\ Most of 
this money has gone to the Federation. The U.S. government, primarily 
through the U.S. Agency for International Development (USAID), 
committed $294.4 million during the program's first year. This money 
went to, among other things, repair municipal infrastructure and 
services, provide small business loans, and give technical assistance 
for the development of national and Federation economic institutions. 
By the end of 1996, there were many signs of economic recovery, 
primarily in the Federation.
---------------------------------------------------------------------------
    \5\ To support these goals, the government of Bosnia, with the 
assistance of the World Bank, the European Commission, the European 
Bank for Reconstruction and Development, and other international 
agencies and organizations, designed a 3- to 4-year, $5.1-billion 
Priority Reconstruction Program. This program provided the 
international community with the framework for the economic 
reconstruction and integration of Bosnia. Fifty-nine donors--48 
countries and 11 organizations--pledged $1.9 billion for the 1996 
economic reconstruction program.
---------------------------------------------------------------------------
    At the end of 1996, however, economic activity was still at a very 
low level, and much reconstruction work remained to be done. 
Furthermore, many key national and Federation economic institutions--
such as Bosnia's central bank--were not yet fully functioning. The 
biggest obstacle to progress in economic reconstruction and economic 
institution building has been the lack of cooperation among Bosnia's 
political leaders in implementing infrastructure projects and economic 
institutions that would unite the ethnic groups within the Federation 
and across the two entities.
    The international community has made many attempts to use economic 
assistance to encourage compliance and discourage noncompliance with 
the Dayton Agreement. \6\ For example, during 1996, according to a 
State Department official, all major bilateral donors had withheld 
economic assistance from Bosnian Serb-controlled areas because Bosnian 
Serb political leaders failed to comply with key human rights and other 
provisions of the Dayton Agreement. Further, on May 30, 1997, the 
Steering Board of the Peace Implementation Council, the organization 
that provides political guidance for the civilian aspects of the 
operation, reiterated previous Council statements on this issue, tied 
assistance for housing and local infrastructure to acceptance of 
returns, and gave priority to UNHCR's ``Open Cities'' project.
---------------------------------------------------------------------------
    \6\ The Congress has placed conditions on some U.S. assistance. 
See, for example, Public Laws 104-107, section 584; 104-122; and 104-
208, section 101(c), Title II.
---------------------------------------------------------------------------
    Moreover, an international donors' conference, originally planned 
to be held at the end of February 1997, was postponed because Bosnia's 
council of ministers had not yet adopted key economic laws. On June 19, 
1997, the donors' conference was again postponed because the government 
of Bosnia, although it had made progress in passing economic laws, had 
not made sufficient progress toward developing an economic program with 
the International Monetary Fund. As of July 15, 1997, the donors' 
conference had not been rescheduled. \7\
---------------------------------------------------------------------------
    \7\ According to a State Department official, the International 
Monetary Fund favors holding the conference the week of July 21, 1997, 
but the date may slip to July 28 or 29, 1997.
---------------------------------------------------------------------------
    Some international officials in Bosnia have questioned the 
effectiveness of threatening to withhold economic assistance from 
Bosnian Serb- and Croat-controlled areas in this conditional manner, 
partly because these areas have received little international 
assistance to date. \8\ According to a State Department official, when 
the U.S. government decided on its conditionality policy toward 
Republika Srpska, it knew from analysis that there would be no quick 
results from the denial of this assistance.
---------------------------------------------------------------------------
    \8\ According to State officials, Bosnian Croat-controlled areas 
received little economic assistance to date because they suffered 
little war damage.
---------------------------------------------------------------------------
    State now believes there is increasing evidence that elected 
officials of Republika Srpska are under mounting political pressure to 
make the necessary concessions to qualify for reconstruction 
assistance. In March 1997, State and USAID officials told us that some 
Bosnian Serb political leaders, including the President of Republika 
Srpska, had shown a willingness to accept economic assistance that 
includes conditions such as employing multiethnic work forces. These 
leaders, according to State, are willing to accept conditional 
assistance because they see the growing gap in economic recovery 
between the Federation and Republika Srpska. As of July 1997, there 
were no tangible results in this area, primarily because attempts to 
work with these leaders were blocked by Radovan Karadzic.
Issues Emphasized During June 1997 Visit to Bosnia
    During our June 1997 visit to Bosnia, numerous U.S. and 
international officials involved in trying to help implement the Dayton 
Agreement emphasized four areas as being critically important to the 
agreement's success: (1) the urgent need to arrest Radovan Karadzic; 
(2) the upcoming municipal elections, specifically the potentially 
contentious installation of municipal governments in areas that had a 
different ethnic composition before the war; (3) the outcome of the 
arbitration decision over control of Brcko; and (4) the need for a 
continued international military force, along with a U.S. component, in 
Bosnia after SFOR's mission ends in June 1998.
Urgency of Arresting Radovan Karadzic
    As we previously reported, in 1996 and 1997 the international 
community made some attempts to politically isolate Karadzic and remove 
him from power. For example, under pressure from the Organization for 
Security and Cooperation in Europe (OSCE) and the international 
community, Karadzic stepped down as the head of the ruling Bosnian Serb 
political party on July 18, 1996.
    According to international observers, however, these efforts to 
remove Karadzic from power did not work; instead, he has effectively 
retained his control and grown in popularity among people in Republika 
Srpska. U.S. Information Agency polls showed that between April 1996 
and January 1997, the percentage of Bosnian Serbs who viewed Karadzic 
very favorably increased from 31 percent to 56 percent, and the 
percentage who viewed him somewhat favorably or very favorably rose 
from 68 percent to 85 percent.
    During our June 1997 fieldwork in Bosnia, many officials with whom 
we spoke were unequivocal in their opinion that Radovan Karadzic must 
be arrested or otherwise removed from the scene in Bosnia as soon as 
possible. They told us that Karadzic, a leader who is not accountable 
to the electorate, is blocking international efforts to work with the 
more ``moderate'' Bosnian Serb political leaders in implementing the 
Dayton Agreement. For example, he has not allowed other political 
leaders, including elected ones, to abide by agreements they have made 
with the international community on small-scale attempts to link the 
ethnic groups politically or economically. Observers also told us that 
Karadzic still controls Republika Srpska police and dominates Bosnian 
Serb political leaders through a ``reign of terror.''
    According to a U.S. embassy official, the arrest of Karadzic is a 
necessary--but insufficient--step to allow Dayton institutions to 
function effectively and to encourage more moderate Bosnian Serbs to 
begin implementing some provisions of the Dayton Agreement. Although 
the arrest alone would not assure full implementation of Dayton, 
without the arrest Dayton would have almost no chance to succeed.
Issues Related to Municipal Elections
    Bosnia's municipal elections are scheduled to be held on September 
13 and 14, 1997. OSCE and other officials with whom we spoke were 
concerned about the volatile environment that will likely surround the 
installation of some newly elected municipal governments, specifically 
those in municipalities that had a different ethnic composition before 
the war. Because people will be able to vote where they lived in 1991, 
the election results in such municipalities could be very difficult to 
implement. For example, it is possible that a predominantly Bosniak 
council could be elected to Srebrenica, a city that had a prewar 
Bosniak-majority population but was ``ethnically cleansed'' by Serbs in 
1995; and Bosnian Serbs could win the majority on the municipal council 
of Drvar, a town with a predominantly Serb majority before and during 
much of the war but now populated in large part by Bosnian Croats.
    To address these potential ``hotspots,'' an interagency working 
group led by OSCE is developing an election implementation plan for the 
municipal elections. An early version of this plan calls for a final 
certification that confirms which municipal councils have been duly 
installed by the end of 1997. \9\ This plan recognizes that candidates 
who win office must be able to travel to municipal council meetings and 
to move about their municipality without fear of physical attack or 
intimidation. It calls for local police to provide security for council 
members and for IPTF and SFOR to supervise the development of the 
security plan and, together with OSCE and other organizations, monitor 
its implementation.
---------------------------------------------------------------------------
    \9\ This plan calls for a two-step certification process for the 
election: a technical certification of the final election numbers and 
the final certification, on a municipality-by-municipality basis, 
confirming which municipal councils have been duly installed. The 
election process will close by the end of 1997. It will be followed by 
a post-election period during which an interagency monitoring and 
reporting structure would continue to monitor the proper functioning of 
municipal assemblies to ensure that elected candidates are able to 
carry out their duties as envisioned by the Dayton Agreement.
---------------------------------------------------------------------------
    According to OSCE and SFOR officials, SFOR's current force level of 
33,000 will be augmented by 4,000-5,000 troops in Bosnia around the 
time of the municipal elections; it is unclear, however, what SFOR's 
force levels will be during the potentially contentious installation 
period. To support the augmentation, as of July 10, 1997, the 
Department of Defense (DOD) planned to increase the number of U.S. 
troops in Bosnia from about 8,000 \10\ to about 10,250 during August 
and September 1997. According to a DOD official, on October 1, 1997, 
SFOR troop levels would be drawn down to either the current force level 
or a lower number, depending on decisions that may be reached before 
that date. OSCE and other officials in Bosnia told us that a further 
drawdown of SFOR below its current force level should not occur until 
the end of the installation process.
---------------------------------------------------------------------------
    \10\ As of July 6, 1997, an additional 2,600 U.S. military 
personnel were also deployed to Croatia, Italy, and Hungary, in support 
of SFOR.
---------------------------------------------------------------------------
Outcome of Brcko Arbitration
    Many international observers in Bosnia told us that the final 
arbitration decision on which ethnic group will control Brcko will 
likely be a major determinant of the ultimate success or failure of the 
Dayton Agreement. This decision will not be made until March 1998 at 
the earliest. Without a final decision, an interim supervisory 
administration will remain in Brcko. In June 1997, the High 
Representative, the coordinator of the civilian aspects of the peace 
operation, stated that Brcko will signal to the rest of the world the 
extent to which progress is being made in the implementation of the 
Dayton Agreement.
    First, some background on the Brcko arbitration process. At Dayton, 
Bosnia's political leaders were unable to agree on which ethnic group 
would control the strategically important area in and around the city 
of Brcko. The Dayton Agreement instead called for an arbitration 
tribunal to decide this issue. At the end of the war, Brcko city was 
controlled by Bosnian Serb political leaders and populated 
predominately by Serbs due to ``ethnic cleansing'' of prewar Muslims 
and Croats, who had then accounted for about 63 percent of the city's 
population, and settlement of Serb refugees there. We were told that an 
arbitration decision that awarded control of the area to either the 
Bosniaks or Bosnian Serbs \11\ would lead to civil unrest and possibly 
restart the conflict because the location of Brcko makes it vitally 
important to both parties' respective interests.
---------------------------------------------------------------------------
    \11\ The parties to the arbitration are Bosnia's two entities, the 
Federation and Republika Srpska.
---------------------------------------------------------------------------
    In February 1997, the arbitration tribunal \12\ decided to postpone 
a final decision as to which of the parties would control Brcko. 
Instead, the tribunal called for the designation of a supervisor under 
the auspices of the Office of the High Representative, who would 
establish an interim supervisory administration for the Brcko area. The 
tribunal decision noted that (1) the national and entity governments 
were not sufficiently mature to take on the responsibility of 
administering the city and (2) Republika Srpska's disregard of its 
Dayton implementation obligations in the Brcko area had kept tensions 
and instability at much higher levels than expected. On March 7, 1997, 
the Peace Implementation Council Steering Board announced that the High 
Representative had appointed a U.S. official as Brcko supervisor, and 
the interim supervisory administration began operating on April 11, 
1997. \13\
---------------------------------------------------------------------------
    \12\ The tribunal consisted of three members--an American, a 
Bosnian Serb, and a Bosniak. The American arbitrator was selected by 
the President of the International Court of Justice and was granted 
authority to issue rulings on his own, including a final award, if the 
tribunal could not reach consensus. Only the American member of the 
tribunal signed the decision.
    \13\ While the city of Brcko, the subject of the arbitration 
dispute, is located in Republika Srpska, the Brcko Supervisor's area of 
responsibility covers almost all of Brcko municipality, which extends 
across the interentity boundary line into the Federation.
---------------------------------------------------------------------------
    The interim administration was designed to supervise the 
implementation of the civil provisions of the Dayton Agreement in 
coordination with SFOR, OSCE, IPTF, and other organizations in the 
Brcko area: specifically, it was to allow former Brcko residents to 
return to their homes, provide freedom of movement and other human 
rights throughout the area, give proper police protection to all 
citizens, encourage economic revitalization, and lay the foundation for 
local representative democratic government.
    According to the Brcko supervisor, known as the Deputy High 
Representative for Brcko, the implementation process has just begun. 
The Deputy High Representative and his staff have been working hard and 
are developing a plan to return refugees and displaced persons in a 
phased and orderly manner, but progress will take a long time and be 
difficult. From January 1, 1997, through June 17, 1997, only 159 
displaced families from the Bosnian Serb-controlled area of Brcko had 
returned to their prewar homes; all of these homes are located in the 
zone of separation. We were told that as many as 30,000 Bosniaks and 
Bosnian Croats were driven from their homes in what is now Serb-
controlled Brcko. Further, freedom of movement does not yet exist in 
the area, primarily due to the fear that Bosniak and Bosnian Serb 
police have instilled in people from other ethnic groups. As in other 
parts of Republika Srpska, Bosnian Serb political leaders refuse to 
cooperate with IPTF in restructuring their police in accordance with 
democratic policing standards. And the Deputy High Representative told 
us that he has no ``carrots or sticks'' either to reward compliance or 
punish non-compliance of the parties, particularly the Bosnian Serbs.
    Brcko has also experienced implementation problems related to the 
upcoming municipal elections that go beyond those of other areas of 
Bosnia. For example, in June 1997 OSCE took action after it 
investigated cases of alleged voter registration fraud by Bosnian Serbs 
in Brcko. After finding that Bosnian Serbs were engaging in wholesale 
fraud, OSCE attempted to correct the situation by (1) firing the 
chairmen of the local election commission and voter registration 
center, (2) reregistering the entire Brcko population and political 
candidates, and (3) suspending and later reopening and extending voter 
registration there, which ultimately ran from June 18 to July 12, 1997.
    The interim supervisory administration is scheduled to operate for 
at least 1 year. The arbitration tribunal may make a further decision 
on the status of the Brcko area by March 15, 1998, if the parties 
request such action between December 1, 1997, and January 15, 1998.
Need for a Continued Military Presence in Bosnia
    In December 1996, the North Atlantic Council, the body that 
provides political guidance to NATO, concluded that without a 
continuation of a NATO-led force in Bosnia, fighting would likely 
resume. Thus, NATO that month authorized a new 18-month mission, SFOR, 
which is about half the size of the previous Implementation Force. 
SFOR's mission is scheduled to end in June 1998. According to the SFOR 
operation plan, the desired NATO end state is an environment adequately 
secure for the ``continued consolidation of the peace'' without further 
need for NATO-led military forces in Bosnia. The plan lists four 
conditions that must be met for the desired end state objective to be 
realized:

  <bullet> The political leaders of Bosnia's three ethnic groups must 
        demonstrate a commitment to continue negotiations as the means 
        to resolve political and military differences.
  <bullet> Bosnia's established civil structures must be sufficiently 
        mature to assume responsibilities for ensuring compliance with 
        the Dayton Agreement.
  <bullet> The political leaders of Bosnia's three ethnic groups must 
        adhere on a sustained basis to the military requirements of the 
        Dayton Agreement, including the virtual absence of violations 
        or unauthorized military activities.
  <bullet> Conditions must be established for the safe continuation of 
        ongoing, nation-building activities.

    The SFOR operation plan asserts that these objectives will be 
achieved by June 1998. However, international officials in Bosnia 
recently told us that the likelihood of these end-state objectives 
being met by June 1998 is exceedingly small. They based this projection 
on their assessments of the current pace of political and social change 
in Bosnia.
    In their view, an international military force would be required 
after June 1998 to deter renewed hostilities after SFOR's mission ends. 
They said that to be credible and maintain international support, the 
force must be NATO led and include a U.S. military component, and it 
must be based in Bosnia rather than ``over the horizon'' in another 
country.
    Many participants of the operation told us that without the 
security presence provided by such a follow-on force to SFOR, their 
organizations would be unable to operate in Bosnia; a U.N. official 
said that IPTF--which consists of unarmed, civilian police monitors--
could not function and would leave Bosnia under those conditions. As 
one international official put it, the follow-on force--including a 
U.S. military presence--needs to be ``around the corner'' rather ``over 
the horizon'' to provide the general security environment in which the 
rest of the peace process could move forward.
U.S. Costs and Commitments Exceed Initial Estimates
    The executive branch initially estimated that U.S. military and 
civilian participation in Bosnia would cost about $3.2 billion through 
fiscal year 1997: $2.5 billion in incremental costs for military-
related operations and $670 million for the civilian sector. \14\ These 
estimates assumed that U.S. military forces would be withdrawn from 
Bosnia when the mission of NATO's Implementation Force ended in 
December 1996.
---------------------------------------------------------------------------
    \14\ DOD costs are incremental costs; that is, they are costs that 
would not have been incurred if it were not for the Bosnia operation. 
For a more detailed discussion of DOD's costs estimates and costs see 
Bosnia: Costs Are Uncertain but Seem Likely to Exceed DOD's Estimate 
(GAO/NSIAD-96-120BR, Mar. 14, 1996); and Bosnia: Costs Are Exceeding 
DOD's Estimate (GAO/NSIAD-96-204BR, July 25, 1996).
---------------------------------------------------------------------------
    The executive branch's current cost estimate for fiscal years 1996 
and 1997 is about $5.9 billion: about $5 billion in incremental costs 
for military-related operations and about $950 million for the civilian 
sector. Almost all of the increase was due to the decision to extend 
the U.S. military presence in and around Bosnia through June 1998. In 
fiscal year 1998, the United States plans to commit about $1.9 billion 
for the Bosnia peace operation: about $1.5 billion for military 
operations \15\ and $371 million for civilian activities.
---------------------------------------------------------------------------
    \15\ DOD estimated its costs could increase by about $160 million 
if the United States maintained an 8,500 force level through June 1998, 
rather than being drawn down to 5,000 on October 1, 1997, as assumed in 
current cost estimates.
---------------------------------------------------------------------------
    Under current estimates, which assume that the U.S. military 
participation in Bosnia will end by June 1998, the United States will 
provide a total of about $7.8 billion for military and civilian support 
to the operation from fiscal year 1996 to 1998. Some State and Defense 
Department officials agreed that an international military force will 
likely be required in Bosnia after June 1998. U.S. participation in 
such an effort could push the final cost significantly higher than the 
current $7.8 billion estimate.
    Mr. Chairman and Members of the Subcommittee this concludes my 
prepared remarks. I would be pleased to respond to any questions you 
may have.

    [The report to which Mr. Johnson referred, Bosnia Peace 
Operation: Progress Toward Achieving the Dayton Agreement's 
Goals (GAO/NSIAD-97-132), is available from the General 
Accounting Office and also on the Internet at http://
www.gao.gov]

    Senator Smith. Thank you very much.
    I just have a question, and any of you can answer it if you 
have an opinion. I think the administration put a lot of stock 
in the hope of national elections, that that would somehow 
diminish the power of Radovan Karadzic. But it did not seem to.
    He seems to have held on to power and perhaps consolidated 
it in some way. Was the administration naive in believing that? 
And, number two, how does he hold on to his power no matter 
what the elections show?
    Mr. Johnson. Well, we were told that he holds on to his 
power by using a reign of terror. He controls the police force 
in the Republic of Srpska. And by using those levers, as well 
as other financial levers that he has available, he is able to 
retain power.
    He also enjoys some popular support among the Bosnian 
Serbs. A poll that was taken, I believe, in July of last year 
indicated that he had about 36 percent very strong support. 
That has since increased to about 56 percent. So he does enjoy 
some popular support, but primarily his control is by strong-
arm tactics.
    Senator Smith. Ambassador.
    Ambassador Abramowitz. Well, on the elections, Senator, I 
was always troubled by the elections. I always felt that we 
should have taken a principled position. The elections were 
fraudulent, by and large, and they produced the results in 
which the basic nationalist leadership were confirmed in their 
positions.
    However, there are other factors. The Administration felt 
that it was important to start the process, partially because 
they felt there were pressures from here and from elsewhere to 
get out. And they felt it was important to start the process.
    I think, personally, that was a mistake. I think it would 
have been better to have persisted in a position in which the 
elections had to be free and fair. They were acknowledged not 
to be free and fair. But, nevertheless, that is water over the 
dam right now.
    I did want to correct, if I may, an impression I might have 
created. I think the changes on seizing indicted war criminals 
and the more fulsome way of dealing with Croatia are very 
positive steps, and I support them. I was simply trying to 
correct my unhappiness with a record on war criminals that 
seems to be discussed publicly from time to time.
    As to Karadzics power, I think it stems much from the same 
reasons that were set forth. He controls the police, he has the 
money and pays them, he controls the legislature and 
parliament. And he is a popular figure. There is a lot of 
support for him still in Bosnia.
    Senator Smith. If he were removed, what would happen, in 
your view?
    Ambassador Abramowitz. I think if he were removed, two 
things I think would happen, although I cannot be sure. It is 
very uncertain.
    Senator Smith. Sure.
    Ambassador Abramowitz. One, I think there would be a very 
significant psychological shift in terms of the willingness to 
cooperate with Dayton. And second, I think it would be much 
easier to get a new leadership which would embody that 
willingness to cooperate.
    I do not mean to say we are going to get a desire to have 
an integrated multiethnic state, but we would get a desire to 
cooperate with a Bosnian entity, to be part of a Bosnian 
entity, and to begin the process of serious reconciliation.
    I believe the process of reconciliation is terribly impeded 
by the existence of Karadzic and company.
    Mr. Heffernan. Just to add one thing, I think the role of 
media has played a very significant role in him being able to 
retain his power too. Obviously it is controlled by the State, 
and he is the State at this point.
    Senator Smith. And because of that fact, how realistic is 
it to think that more elections will be beneficial, the 
municipal ones that are anticipated? If he controls the media, 
will they not determine the outcome?
    Ambassador Abramowitz. Well, I think Mr. Heffernan was 
correct about the importance the media. And we have been, I 
think, insufficiently diligent in trying to change that.
    I also believe, for example, in making our case to the 
Srpska Republic we have also been remiss. We have done very 
little in explaining why we are going after war criminals, what 
it means, and the rationale for this. And I believe SFOR and 
the U.S. Government should have early on put on a more massive 
campaign to explain to the people of Srpska what is involved 
here.
    Senator Smith. I bet Joe Biden and I could figure out some 
pretty good negative ads to run against this guy.
    Senator Biden.
    Senator Biden. Mr. Chairman. First, I want to thank all of 
you for being here.
    I must admit, Mr. Ambassador, I have not read the report 
that I think was issued yesterday by your organization. I am 
looking forward to it.
    You said two things that I found particularly fascinating. 
You said--and I suspect I saw your colleagues sort of nod their 
heads. I think they are in agreement, but I do not want to put 
words in their mouth.
    How does Karadzic keep control of the police? You indicated 
part of it was money. Where do you think he gets his money? He 
was not born wealthy.
    Ambassador Abramowitz. Well, according to Mrs. Plavsic, who 
made a remarkable speech, and I would urge you all to read it, 
he controls most of the monopolies, cigarettes, gasoline, and 
the like that are sold in Srpska. And there is an enormous 
rake-off in terms of pricing. I cannot give you----
    Senator Smith. No, no. I----
    Ambassador Abramowitz. I am merely repeating what Mrs. 
Plavsic said 2 weeks ago.
    Senator Smith. No, I am not taking issue with it. I think 
it is important to be on the record. Second, what was amazing 
to me--second, we at the outset, when the former Yugoslavia 
made a split, when Bosnia and Herzegovina was recognized in the 
international community and problems began, there was no doubt 
in my mind, and I suspect in each of your minds, that Milosevic 
was a major player in facilitating--I will put it another way.
    Had there been no Milosevic, had there been a responsible 
leader in Serbia who did not embolden, supply, maintain, give 
physical support and military support for, I doubt whether we 
would have ever gotten to the point we are now.
    So the haunting question for guys like me who, I must 
admit, sometimes my judgment may be blurred because of my 
vision, my view, my opinion of Milosevic. How involved, how 
important is this Serbian, meaning the country of Serbia, the 
Serbian connection in the ability of these war criminals and 
their supporters in the Republika Srpska and elsewhere in 
Bosnia and Herzegovina to continue to survive and wield the 
power that we have all acknowledged they continue to wield? 
Being a cog in the wheel, what part does, if you have an 
opinion, Milosevic play at this moment?
    Ambassador Abramowitz. It is very difficult for me to 
answer that, and I can only really speculate. I think the most 
tangible involvement probably is the support of the Yugoslav 
army for the military of Srpska.
    They pay most of the salaries, I believe. Certainly during 
the way they supplied most of the ammunition and most of the 
support. That is one thing.
    Second, we also know that although there have been very 
significant differences between Milosevic and Karadzic--I 
personally do not know what the state of their relations is 
right now--Milosevic has a big influence in the Srpska 
political scene.
    The nature of that influence, I cannot really say. But 
everybody knows that he is a significant figure, although in 
trying to broker a meeting between Pale and Banja Luka, he was 
unsuccessful.
    Third, in a larger sense, if there was no Serbia, Srpska 
could not exist. It just could not exist. It would have to make 
its peace with Bosnia and Herzegovina and be part of that 
state. I am talking of a Serbia that is highly nationalist, 
that still is interested in preserving an ethnic relationship 
with its neighboring Serbs, although less so than years ago 
because, after all, the principal thing that changed the 
Bosnian situation, as you know, was the Croatian military 
offensive. That changed everything.
    Senator Biden. Exactly right.
    Ambassador Abramowitz. That led to Dayton.
    Senator Biden. Exactly right.
    Ambassador Abramowitz. That particular development. And 
Milosevic abandoned the Croatian Serbs, leading to so many 
refugees in Serbia as well as in Srpska. And he has been hurt 
in part because of this. Nevertheless, the overall power of 
Serbia is still a major factor in----
    Senator Biden. One of the disappointing conclusions that I 
have reached is that the political difficulty Milosevic was 
having within Serbia, seems to have moderated of late. The 
people providing that difficulty, I assumed, I hoped at the 
outset, were not nationalists with the same ultra-nationalism 
that he represents.
    And the thing that disappointed me as I was attempting to, 
and others, embolden the administration to provide at least 
some credibility for the opposition, was the conclusion I 
reached that I was not sure there was much of a difference.
    As old George Wallace used to say, and we are both old 
enough to remember the phrase, ``There ain't a dime's worth of 
difference.''
    He was talking about the two political parties. There may 
have been a quarter's worth of difference, but there did not 
seem to be a dollars worth of difference between the opposition 
forces and Milosevic, which leads me to the last question I 
have for you, Mr. Ambassador. But then I would like to hear 
from your two colleagues.
    That is, what leverage, if any, do you think, and maybe 
your report speaks to this, I do not know, what leverage do you 
think remains of our power to exert on Serbia?
    Because, as you point out, were there not a nationalistic 
Serbia, regardless of whether there is a Milosevic adding 
injury at this moment or anyone else, it would be virtually 
impossible for the Republic of Srpska to continue to be as 
obstreperous and counterproductive as they have been for a 
whole range of reasons.
    Is there any additional pressure we are capable of exerting 
to bring about a more civilized behavior, enlightened behavior, 
on the part of Serbia?
    Ambassador Abramowitz. Before I try to answer that, let me 
just observe that Milosevics nationalism was a highly cynical 
nationalism. I do not know his genuine feelings, but he clearly 
was using----
    Senator Biden. Absolutely.
    Ambassador Abramowitz.--Serbian nationalism to advance his 
goals. He dropped it in the years 1993, 1994, 1995. Where he 
stands now, I do not know.
    And he clearly, as far as I am concerned, has not been very 
helpful since Dayton in terms of helping to carry out the 
provisions of Dayton, whether from war criminals to encouraging 
Republika Srpska to get the people to cooperate.
    The leverage we have is, I think, still very great if we 
can unite the world on it. And by uniting the world, I mean our 
allies who, after all, have always been split on this issue.
    We have always had a split with our allies as to how to 
deal with Serbia. And there are a number of allies who have 
wanted to, in the past few years, sort of make their peace with 
Serbia, give them the benefit of the doubt, et cetera.
    I believe that the biggest method we have--and it is hard 
to measure when it will be effective. Obviously I do not know--
the biggest method we have is the continued sanctions on 
Serbia, the continued isolation.
    The thing that bothers me most about the events of November 
in Servia is I think Milos has been a terrible drain on Serbia. 
And we need a strong Serbia, and we need a dynamic and 
progressive Serbia. He has brought this country to----
    Senator Biden. I understand.
    Ambassador Abramowitz. The problem was, I felt, that we did 
not take advantage, no matter how divided some of the 
opposition was, we did not take advantage of that enormous 
opportunity to make better use the media. And it might not have 
worked, but all that we had to try to make his position more 
untenable. I think that was a terrible, terrible mistake.
    Senator Biden. So do I. The reason I mentioned what I said 
about the opposition was that I was making a case to anyone who 
would listen. It was undercut by the fact they were able to 
convince some of the opposition through their actions, 
attitudes, speeches, statements, and state policies. So it was 
not as if I had total high ground to make the case. I was not 
suggesting that we still should not have done it anyway. I 
believe we still should have done it.
    As a matter of fact, as bizarre as it sounds, there are 
folks around here trying to eliminate Radio Free Europe or 
Radio Liberty.
    One of the things I think we should be using, and we could 
be using a hell of a lot more, are radios in Serbia, as well as 
Croatia, I might add, for the same reason but with a different 
message.
    So I share your view and your frustration. But I am taking 
too much time here.
    Would either of you gentlemen like to comment on the areas 
I have raised with the Ambassador? Otherwise, I will come back 
after the Chairman finishes.
    Mr. Johnson. I will just make one comment on the initial 
question you asked about the relationship between Pale and 
Belgrade. We heard from fairly high levels at the embassy that 
decisions that are made in Banja Luka run to Pale, and then 
they run to Belgrade.
    I would also point out that Mrs. Plavsic was detained in 
Belgrade, so that would indicate to me that there is some 
linkage between Milosevic and Karadzic, at least for the 
moment.
    Senator Biden. Unless something has changed drastically, 
and I realize this is anecdotal, but in my first trip to 
Bosnia, I spent a lot of time, meaning several hours, in a 
private meeting with Milosevic in Belgrade, well into the 
night.
    And if you have ever been to his office, there is a very 
small conference table. It is one-third of the size of that and 
a little more narrow. He sat on one side of that table and me 
on the other and a staffer, and he had two people with him.
    And literally until 11 oclock at night we were arguing with 
one another about what he was doing or not doing, and we were 
not making much progress. And he kept saying, Mr. Karadzic is 
the one you have to speak to. But I have no control over him. I 
have no control over him.
    So literally, not figuratively, but literally, at about 10 
minutes of 11 he said, ``Do you want to speak to Karadzic?''
    And I said yes. With that, he got up and walked two paces 
to a phone behind him on a corner table, picked up the phone, 
said something in Croatian, which I did not understand, said 
something.
    He sat back down, and we continued our meeting, or argument 
I guess it was. And literally, Mr. Chairman, 15 minutes later, 
you can hear them coming up the steps, some of them running up 
the steps.
    And I must tell you, for a moment I sort of braced myself. 
And then around the corner comes that fellow who we have all 
come to know with that full head of hair, the only thing he has 
that I think is worth having.
    And then he sat down at the table. I thought he was going 
to have a heart attack he was so out of breath.
    And he said, ``Mr. President, I'm sorry,'' speaking 
English, ``I'm sorry I'm late. I didn't mean it.''
    So I looked across at Milosevic, who is a very short guy, 
and I said, ``No control.''
    And I realize that is anecdotal, and I realize I cannot 
from that conclude with certainty that there is still a 
relationship where there is no doubt who is the boss. But at 
that time there was no question. We know the connection has 
been sustained for a long time. And Mr. Karadzic knows what is 
in store for him.
    My view--and this is the last comment I will make and ask 
any of you to comment on it--it is not surprising. It would 
have been a travesty had Karadzic not been indicted. And he 
knew from the outset 4 years ago he would be branded a war 
criminal unless he totally succeeded.
    We sat in that room, and I looked at him and I said, ``Mr. 
Karadzic, it is a pleasure to meet you. Your voice sounds 
exactly like it does on those tapes.''
    He looked at me and said, ``What tapes?''
    And I said, ``The directions you gave to the death and rape 
camps.''
    And I am not exaggerating when I say he turned as white as 
that sheet.
    And I said, ``So it is a pleasure to see you in person.''
    This is a case where the tape and the voice match. And so I 
am of the view that because he knows that if in fact he is 
captured, if there is ever a case that is going to be able to 
be made, it will be made against him. The longer he is out 
there, the more dangerous it is.
    This is not a guy who is going to go quietly into the 
night. There is nothing he is going to be able to negotiate if 
he ever gets to the Hague.
    Ambassador Abramowitz. But there is also another factor, 
and that is he probably has a very good case against Milosevic.
    Senator Biden. Absolutely.
    Ambassador Abramowitz. And, therefore, for Milosevic to 
seize him is a potentially a very dangerous thing.
    Senator Biden. You just answered the question I was going 
to ask. I do not think there is any possibility of that 
occurring. There is a risk to American personnel, but I know of 
no other answer than to use whatever capacity we collectively 
have and arrest him.
    Does anyone disagree with that?
    How would you assess the risk? I realize this is crystal 
ball gazing. I mean, who knows. But do any of you have any 
comment you would like to make on that?
    And then I will stop, Mr. Chairman.
    Ambassador Abramowitz. I cannot fully--I cannot even 
partially assess the risks. But I think there are a number of 
things here that would cause a certain amount of caution on the 
Serb part.
    One, NATO has the capacity, with all of their weapons, or 
most of their weapons in storage sites, to destroy the 
capabilities of the Serbian army, their whole capacity to 
fight. That would be an extraordinary blow to the confidence of 
the Serbs, and that is one thing.
    Second, you know, conversely----
    Senator Biden. You mean the J and A now.
    Ambassador Abramowitz. No. I am talking about the----
    Senator Biden. The Bosnians.
    Ambassador Abramowitz.--Bosnian Serb. They are all in 
Cantonments.
    Senator Biden. No. I got it. They could destroy----
    Ambassador Abramowitz. They will destroy it. The second 
thing that strikes me is that, as I say, in a perverse way, 
Bosnian Serbs need us--the balance of forces is a little 
different.
    And if hostilities were to emerge, they would for the first 
time be at very great military risk. I am not saying that the 
Muslim side is eager for a fight, but there is a difference in 
capabilities from before.
    Senator Biden. I think you are right.
    Ambassador Abramowitz. And they would be at great risk. 
That does not mean they will not try retaliation, it does not 
mean--but there are limits, I believe, serious limits as to 
what they can do.
    Now, that requires a lot of fortitude on our side. It is a 
risk. It is not only a risk to people, it is a political risk. 
But I also believe there is a terribly important political 
moral case to go after him.
    Senator Biden. I do, too. And I think failure to take the 
risk almost guarantees an outcome where the cost will be even 
higher. I mean, in a purely selfish American sense the cost is 
higher, as well as clearly the cost is higher on the ground.
    And I think, quite frankly, Mr. Ambassador, we are talking 
about expanding NATO. My friend and I have been deeply involved 
in that process with the administration. I think were this to 
come a cropper, you can begin to say goodbye to NATO.
    I thank you, Mr. Chairman, for allowing me so much time.
    Senator Smith. That is fine.
    I only have a final question, Mr. Ambassador. I wonder in 
your view does the presence of Croatia and Serbia have any real 
control over the Croat and Serbian areas of Bosnia?
    Ambassador Abramowitz. Absolutely.
    Senator Smith. Do they have sufficient----
    Ambassador Abramowitz. The whole Croatian, the whole 
Herzeg/Bosnia thing is underwritten by Zagreb. The defense 
minister went to the funeral of Mate Babich, the Bosnian Croat 
leader.
    And he said, ``We will continue''--Defense Minister Shoshak 
of Zagreb, said, ``We will continue to carry out his ideals.''
    And his ideals were an ethnic Croatian state. There is no 
question in my mind that Tudjman, President Tudjman, if he 
wanted to do something, one, on indicted war criminals, and 
two, to enlist a greater collaboration from the Croatian 
population of Bosnia with the other ethnic elements of Bosnia, 
could encourage it enormously. I have no doubt about that.
    Senator Smith. So if those ideals included the Dayton 
Accords, they could implement the Dayton Accords.
    Ambassador Abramowitz. I think Croatia has a big role in 
implementing the Dayton Accords, which is why I believe it is 
important not to let them escape that responsibility and to use 
the financial club over their heads.
    Senator Smith. That is my point. I thank you.
    Senator Biden. Mr. Chairman, can I make one parting comment 
to my three colleagues?
    Senator Smith. Yes.
    Senator Biden. And I want to introduce two Delawareans that 
are here. They do not expect me to do this, they do not even 
know that I know they are here.
    But Ms. Kingsley and Mr. Fisher, they moderated a debate on 
this issue last fall at the University of Delaware, and both of 
them were OSCE observers, if I am not mistaken, in Bosnia. And 
I am glad to see them both here.
    Excuse the parochial recognition, but it is nice to have, 
at least from my parochial perspective, some very informed 
people in my home state so that not everyone thinks I am crazy.
    And, second, do any of you--I am going to state a 
proposition, and I would just like your comment. It seems to me 
that in order for us to manage the apprehension of Serbian war 
criminals and marginally at least diminish the negative 
consequences from that, we should aggressively move on Croatia 
war criminals.
    There are indicted Croatian war criminals, who as you point 
out, Mr. Ambassador, Tudjman could easily, easily facilitate 
delivery.
    And I hope this policy is a policy of moving on war 
criminals. And if it is, I sincerely hope that there is some 
political thought given to the need to demonstrate that this is 
not merely an attempt to punish Serbian war criminals. There 
were war criminals in all three factions, I would argue 
overwhelmingly in the Serbian sector. But they should move.
    And, Mr. Johnson, it does not surprise me that you would 
hear international observers and/or any of our NATO allies 
indicating that there would be no credibility for a follow-on 
force that did not include American forces even if they were 
stationed in Hungary and Italy.
    But if they examine what they have said and that is true, 
it is fascinating for Europeans to acknowledge they have no 
credibility and NATO has no credibility, if that is what it 
would be saying.
    And I make a prediction to you, which is a dangerous thing 
to do in this outfit, but if in fact there is no follow-on 
force that is complemented by U.S. strategic, logistical, 
tactical, air, naval and a rapid deployment force capability, 
if that combination, or something close to that, is not left in 
place at the end of next year, I think this will all have been 
for naught.
    And I would argue, and I hope it will not be true, but our 
ability--we happen to support the expansion of NATO--would be 
significantly, significantly diminished here.
    People have vastly underestimated, but vastly 
underestimated, how difficult it will be to get the votes to 
amend the Washington Treaty.
    If all in/all out is the policy and things begin to blow, a 
lot of people, and not just the American public but in this 
body, will say, ``What is the value of NATO? Why are we going 
to pay $200 million a year more when these folks cannot even 
take care of their own backyard with our overwhelming 
support.''
    But I really hope, Mr. Johnson, that the President puts 
together something very close to that. And I am one who thinks 
we should not get out, one of only a few. But there better be 
NATO forces there at the end of the day or we have a problem.
    Senator Smith. Gentlemen, we thank you all for your 
participation in this hearing. And for the record let me state 
that Senator Lautenberg would like to submit a statement for 
the record.
    So it will be held open for him to do that if there is no 
objection. And also for other Senators who may not be here but 
wish to ask a question, the record will be left open for them 
for 3 days.
    [The prepared statement of Senator Lautenberg follows:]

 Prepared Statement of Hon. Frank R. Lautenberg, U.S. Senator from New 
                                 Jersey

    I commend the Chairman and Ranking Member for holding this hearing. 
I welcome the opportunity to share my views about compliance with the 
Dayton Accords in Bosnia, particularly aspects related to the 
apprehension and prosecution of indicted war criminals.
    As a result of the horrifying extent of war crimes committed before 
and during the war in Bosnia, the U.N. Security Council, in May of 
1993, created the International Criminal Tribunal for the former 
Yugoslavia (ICTY). One of only four international war crimes tribunals 
ever established, its mandate is to prosecute ``genocide, crimes 
against humanity, grave breaches of the Geneva Conventions, and 
violations of the laws and customs of war'' committed in the territory 
of the former Yugoslavia beginning on January 1, 1991.
    When the parties to the conflict in the former Yugoslavia signed 
the Dayton Peace Agreement, they recognized that reconciliation could 
not occur unless war criminals were brought to justice. As such, they 
agreed to cooperate fully with the investigation and prosecution of war 
crimes and other violations of international humanitarian law.
    With the exception of the Bosnian Muslims, however, the parties to 
the Dayton Peace agreement have failed to arrest and transfer to the 
Tribunal the vast majority of indicted war criminals in territory 
within their control. Until the recent arrests of Milan Kovacevic, a 
Bosnian Serb accused of sending thousands of Muslims to certain torture 
and death in concentration camps in the former Yugoslavia, and Slavko 
Dokmanovic, accused of participating in a massacre of 261 civilians in 
a hospital in Vukovar, only one indicted war criminal had been sent to 
the Tribunal in The Hague in the last year by regional authorities. 
Sixty-six of the original 74 known fugitives remain at large. At this 
rate, it would take another 66 years to put the remaining publicly 
indicted war criminals behind bars.
    Where are these and other war criminals finding sanctuary?
    Many of the indicted war criminals have been sighted living openly 
and freely in Croatia, the Croat-controlled areas of the Federation of 
Bosnia and Herzegovina, the Republika Srpska, and the Federal Republic 
of Yugoslavia (Serbia-Montenegro).
    Last fall, one non-governmental organization, the Coalition for 
International Justice, compiled a list of all public sightings of war 
criminals. For example, according to the Coalition's research, Dario 
Kordic, one of the most widely recognized war criminals in the former 
Yugoslavia for his role in killings in Lasva Valley, was seen visiting 
his parents' apartment in Zagreb, Croatia. About the same time, Ivica 
Rajic, another highly sought after war criminal, was reportedly seen in 
a hotel in Split, Croatia.
    The list of public sightings of indicted war criminals goes on and 
on. Associated Press correspondent Liam McDowall reportedly located six 
Bosnian Croats indicted for war crimes living and working in the 
Bosnian Croat town of Vitez. And in perhaps the most egregious case to 
date, Boston Globe reporter Elizabeth Neuffer reportedly found Zeljko 
Mejakic--indicted for crimes committed as commander of Omarska camp 
where some 4,000 people were tortured to death and women were brutally 
raped--working as the deputy commander of the Prijedor police station 
in Republika Srpska.
    This list may not be entirely up to date now, but it illustrates 
graphically that many of the indicted war criminals could have been 
arrested easily if the authorities in control of the territory where 
they were located had chosen to do so. I believe that is still the case 
today.
    I appreciate the fact that the act of apprehending and transferring 
indicted war criminals to The Hague presents a thorny problem for the 
international community. While some argue that American and NATO 
military personnel should plunge in and make the arrests, others argue 
that using NATO troops to arrest these indicted war criminals would be 
fraught with difficulties that could put American and other NATO troops 
in unnecessary danger.
    Discussions about the role NATO troops will play have been underway 
in the apprehension of war criminals since NATO troops landed in the 
region a year and a half ago. Although British NATO troops did recently 
arrest a war criminal, 66 publicly indicted criminals continue to roam 
the region with impunity. Meanwhile, the clock ticks ever closer to the 
June 1998 withdrawal date for NATO. Make no mistake about it: if war 
criminals remain at large when NATO troops withdraw, long-term peace 
will be jeopardized. The apprehension of war criminals is essential for 
reconciliation to occur.
    While the international community continues to debate the wisdom of 
using NATO troops to apprehend war criminals, it must not fail to use 
economic assistance as leverage to secure the arrest of these 
fugitives.
    Secretary Albright has rightly concluded that the international 
community should condition economic assistance on cooperation with the 
War Crimes Tribunal. In late May, she was right to announce aboard the 
U.S.S. Intrepid that ``we have made compliance by all parties with the 
obligation to cooperate with the Tribunal a prerequisite to our 
assistance . . .'' The U.S. must insist that authorities in the region 
make substantial progress toward arresting and transferring indicted 
war criminals if the international funding spigot is to continue 
flowing. Billions of dollars in assistance is powerful leverage, and 
the United States would be wise to use it effectively.
    But tough talk needs to be followed by tough action. On May 13, the 
U.S. sent the wrong signal when it rewarded the Croatian government 
with a $95 million World Bank enterprise and financial sector 
adjustment loan. Less than a month later, on June 10, the 
Administration voted in favor of a $13 million loan for a Croatian 
cement factory at the World Bank's International Finance Corporation 
despite the fact that none of the 13 Croat war criminals at large were 
arrested. The two votes were a setback for U.S. policy in Europe. To 
its credit, the Administration did postpone votes on the most recent 
proposals for aid to Croatia at the World Bank and the International 
Monetary Fund, albeit under significant and persistent pressure from 
the Congress.
    Clearly, we need a law to block assistance to countries that fail 
to arrest indicted war criminals. The U.S. must step forward and assert 
greater leadership and a more consistent policy in this area. To 
promote this stronger U.S. role, Senators Leahy, Lugar, Feinstein, 
Mikulski, Murray, Moynihan, D'Amato, and Lieberman, and I introduced 
legislation, S. 804, on May 23, 1997 to condition foreign aid to 
countries that provide sanctuary to indicted war criminals who are 
sought for prosecution by the War Crimes Tribunal. Senator McConnell, 
Chairman of the Foreign Operations Appropriations Subcommittee, 
included our legislation in the Foreign Operations Appropriations bill 
for fiscal year 1998, which was reported by the Appropriations 
Committee on June 24, 1997.
    Our legislation, S. 804, reinforces the obligation of the parties 
to the Dayton Agreement to arrest and transfer those indicted for 
genocide, rape, and other crimes against humanity to The Hague. To 
secure their cooperation, it imposes conditions on America's portion of 
the $5.1 billion in economic reconstruction funding to Bosnia and 
Herzegovina.
    Under our legislation, regional authorities must meet a simple 
standard. They must immediately arrest a majority of indicted war 
criminals living in areas under their control, and within six more 
months, they must arrest all war criminals. Failure to cooperate and 
pass this test will result in an immediate suspension of U.S. support 
for bilateral aid and multilateral aid. To give the U.S. government 
carrots as well as sticks, the legislation allows for humanitarian and 
democracy building assistance.
    Our legislation recognizes that even the parties to the Dayton 
Agreement may find it difficult to apprehend all indicted war criminals 
immediately, and therefore does not require them to complete the 
process all at once. Once a majority of the war criminals have been 
arrested and turned over, they are given up to six months to finish the 
job.
    Because our goal is to promote greater cooperation and provide 
carrots, democratic and humanitarian assistance would still be provided 
even in sanctioned countries or entities. Humanitarian assistance is 
defined to include food and disaster assistance and assistance for 
demining, refugees, education, health care, social services, and 
housing. Democratization assistance includes electoral assistance and 
assistance used in establishing the institutions of a democratic and 
civil society, including police training.
    However, assistance for projects in communities in which local 
authorities are harboring criminals or preventing refugees from 
returning home would be strictly limited to emergency food and medical 
assistance and demining assistance. And absolutely no assistance--
humanitarian or otherwise--could be provided to projects or 
organizations in which an indicted war criminal is affiliated or has a 
financial interest. These provisions are important to ensure that our 
assistance is not being used to prop up war criminals and that only 
communities that allow refugees to return are rewarded with assistance.
    Our legislation recognizes that the realities of government control 
in the former Yugoslavia do not always conform to the arrangements in 
the Dayton Agreement. Recognizing that a constituent entity of Bosnia 
and Herzegovina may not control all areas within its border, and that 
Croatia or Serbia may have effective control of territory that reaches 
beyond their borders, the legislation holds a government or constituent 
entity responsible for indicted war criminals ``in territory that is 
under their effective control.'' As such, the legislation is not meant 
to impose sanctions on the Muslim-Croat Federation as a whole if an 
indicted war criminal remains in a Croat-controlled area of the 
Federation. Likewise, it would allow sanctions to be imposed against a 
country, such as Croatia, for failing to secure the apprehension of war 
criminals in areas of the Federation which it effectively controls.
    These measures are not intended to be punitive. I and the sponsors 
of this legislation have made every effort to ensure that humanitarian 
assistance to the people in all parts of the former Yugoslavia will not 
be affected. While we do not oppose reconstruction funding, we believe 
there is value in using it as a carrot, to provide an incentive to the 
parties to arrest and turn war criminals over to the Tribunal.
    I and the cosponsors of S. 804 are not alone in this view. Our 
legislation has been endorsed by the Coalition for International 
Justice, Human Rights Watch, Physicians for Human Rights, Action 
Council for Peace in the Balkans, and the International Human Rights 
Law Group.
    U.S. and international aid can help rebuild roads, bridges, and 
power grids. But money alone cannot heal the deep wounds that divide 
communities and perpetuate the cycle of hatred. Only reconciliation 
through justice will heal those wounds. Unless war criminals are 
brought to justice, reconciliation in Bosnia and Herzegovnia will 
remain an elusive goal.
    The Washington Post, in a February 1997 editorial, said it well: 
``U.S. forces [cannot] fulfill their mission--bringing peace to 
Bosnia--as long as war criminals remain at large. Lately, it has become 
popular to focus on economic reconstruction as the answer to Bosnia's 
troubles. But war didn't break out for economic reasons, and economic 
aid alone can't secure the peace. As long as alleged war criminal 
Radovan Karadzic and his henchmen run things from behind the scenes, 
economic aid actually will flow to the criminals. . . .''
    Peace will not be permanent in Bosnia if the War Crimes Tribunal 
cannot complete its work. Future stability and economic growth depends, 
in part, upon the repatriation of refugees. Yet the ability of refugees 
to return home and resume normal lives will be fostered only if the war 
criminals who perpetuated terror, intimidation, and violence are 
brought to justice. That end can only be achieved when war criminals 
are arrested.
    If we accept the premise that American foreign aid should promote 
our nation's long-term foreign policy goals, we must deny assistance to 
governments that have failed to cooperate with the War Crimes Tribunal. 
Leveraging aid moves the U.S. closer to justice for the victims of 
genocide, rape, torture, and other war crimes. And it meets our 
humanitarian responsibility to never again allow war crimes and 
genocide to go unpunished.
    No one has articulated the need for this legislation as well as 
Justice Goldstone, Former Chief Prosecutor of the International 
Criminal Tribunals for the Former Yugoslavia and Rwanda when he spoke 
at the U.S. Holocaust Memorial Museum in January of 1997: ``Where there 
have been egregious human rights violations that have been unaccounted 
for, where there has been no justice, where the victims have not 
received any acknowledgment, where they have been forgotten, where 
there's been a national amnesia, the effect is a cancer in the society. 
It's the reason that explains . . . spirals of violence that the world 
has seen in the former Yugoslavia for centuries. . . .''
    Justice Goldstone was right. What is required is a genuine process 
of reconciliation, which can never occur unless war criminals are 
brought to justice. Without reconciliation, the spiral of violence will 
only continue, and the military mission on which the American taxpayers 
have literally spent billions will be for naught.
    America stands for justice and reconciliation throughout the world. 
We must stand up for those principles by ensuring that the war 
criminals of Bosnia are apprehended and the victims are heard.

    Senator Smith. If there is no objection, we are adjourned.
    [Whereupon, at 4:45 p.m., the hearing was adjourned.]
</pre></body></html>
